<html>
<title> - AVIATION SECURITY--NEXT STEPS</title>
<body><pre>[Senate Hearing 107-1069]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1069

                     AVIATION SECURITY--NEXT STEPS

=======================================================================

                             FIELD HEARING

                               before the

                        COMMITTEE ON COMMERCE, 
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
89-684                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on Decenber 10, 2001................................     1
Statement of Senator Cleland.....................................     1

                               Witnesses

Bevan, Dr. Thomas, Director, Georgia Institute of Technology.....    28
    Prepared statement...........................................    31
Brooks, Colonel, Atlanta Police Department.......................    51
DeCosta, Benjamin R., Aviation General Manager, Hartsfield 
  Atlanta International Airport..................................    14
    Prepared statement...........................................    17
Duncan, Richard, Hartsfield International Airport................    50
Jackson, Michael P., Deputy Secretary of Transportation, 
  Department of Transportation...................................     3
    Prepared statement...........................................     7
Kalil, Thomas, Senior Vice President, Customer Service, AirTran 
  Airways, Inc...................................................    24
    Prepared statement...........................................    26
Macginnis, Kevin D., Member, Aviation Security Committee, Delta 
  Pilots Master Executive Council, Air Line Pilots Association, 
  International..................................................    35
    Prepared statement...........................................    37
Planton, Jeff, Senior Vice President, Electronic Data Systems 
  (EDS') U.S. Government Group...................................    44
    Prepared statement...........................................    47
Selvaggio, John, Senior Vice President, Airport Customer Service, 
  Delta Air Lines, Inc...........................................    20
    Prepared statement...........................................    22

 
                     AVIATION SECURITY--NEXT STEPS

                              ----------                              


                       MONDAY, DECEMBER 10, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                       Atlanta, GA.
    The Committee met, pursuant to notice, at 10:16 a.m. in 
room 2306, Richard B. Russell Federal Building, Atlanta, 
Georgia, Hon. Max Cleland, presiding.

            OPENING STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. The Senate Commerce Committee will come to 
order.
    We are delighted to have all of you present today. Let me 
just say that as a member of the Commerce Committee and the 
Subcommittee on Surface Transportation and the Subcommittee on 
Aviation, it has been quite a ride since September 11. Our 
transportation infrastructure has taken a hit, particularly our 
airlines. And this being the site of the busiest airport in the 
world, we wanted to come here and see how we were progressing 
and what we needed to do to stay on track with the new aviation 
security law.
    One of the wonderful people we have with us today is Deputy 
Secretary of Transportation Michael Jackson. Michael, we are 
delighted that you came south and we thank you very much. Give 
Secretary of Transportation Norm Mineta our best regards. He 
has got a tough job and he is a distinguished American and a 
great friend. We would love for you to convey our thanks to him 
for letting you come.
    I have a basic opening statement that I would like to share 
with you and then we will get into the testimony. We will try 
to conclude today by noon. We will ask all of our panelists to 
try to keep their remarks to about 5 to 8 minutes. We are not 
going to be too rigid in that regard because we want you to 
share with us how you are coming along. I would like to lead 
off by again giving thanks to everybody who came today.
    We have on the books now a landmark aviation security bill 
that was passed originally by the Senate 100 to 0, which is a 
historic moment in and of itself, and a bill was later passed 
by the House. The conferees basically adopted about 98 percent 
of the Senate bill and it was signed into law by the President. 
This historic piece of legislation was enacted in response to 
the events of September 11 when, as you know, terrorists 
commandeered U.S. commercial jets filled with passengers and 
used them as weapons of mass destruction.
    It was an act of war on America's citizens. On that day of 
infamy, there were more casualties at the World Trade Center, 
the Pentagon and on the four hijacked jets than there were at 
Pearl Harbor.
    The terrorist attacks of September 11 have precipitated a 
sea change in attitude on how we view our homeland security. 
Homeland security, aviation security are now part of our 
national security. There is no such thing as business as usual 
any more.
    Immediately after the events of 9/11, the Federal Aviation 
Administration and the U.S. Department of Transportation took 
steps to tighten aviation security around the country. U.S. 
airlines and airports put in place security safeguards and 
Congress passed the most sweeping aviation security bill in 
history.
    Every commercial airport will now have a Federal security 
manager and the manager will conduct an immediate assessment of 
safety procedures at the busiest airports in the country. We 
will have strict uniform national standards for the hiring and 
training and job performance of the men and women who are on 
the front lines of ensuring that our airports and airplanes are 
not only the safest in the world, but also the most secure. 
Because of this legislation, every airport screener must now be 
a U.S. citizen. He or she must pass a criminal background check 
and he or she must perform well in their job. If they do not, 
they can be fired immediately.
    Cockpit doors are already being fortified. The number of 
air marshals on airplanes are already being increased and 
international flights are now providing the U.S. Customs 
Service with passenger lists before they can land in this 
country.
    Testifying today will be Deputy Secretary of Transportation 
Michael Jackson, the No. 2 official at the Department of 
Transportation. Until the new Under Secretary for Security is 
sworn in, Mr. Jackson has oversight over the security of our 
aviation system. I might add that Mr. Jackson once taught 
political science at the University of Georgia. Go Dogs!
    [Laughter.]
    Senator Cleland. Therefore, he will have a bulldog approach 
to security.
    [Laughter.]
    Senator Cleland. Today, the Committee will hear from the 
Deputy Secretary on the national status of our aviation 
security in light of the September 11 events, how the new 
aviation security law is being implemented, and the transition 
challenges we face.
    We are also fortunate to have panelists from Georgia Tech 
and EDS, who will discuss the latest technologies to shore up 
security throughout the entire U.S. aviation system, from 
cockpits to off-limits airport areas.
    Hartsfield, the world's busiest airport, Delta with its 
world headquarters in Atlanta and AirTran are key not just to 
Georgia's economy, but to our national aviation system as well. 
We will hear from panelists from each of these Georgia giants, 
who will tell us what security measures they have put in place 
since 9/11.
    I will caution that our panelists cannot divulge certain 
information about measures they have already undertaken and 
will undertake which could compromise national security by 
benefiting those who wish America harm.
    Representing Hartsfield will be its General Manager Mr. Ben 
DeCosta, who will address the incident of November 16 when an 
individual breached security at the Atlanta Airport. The 
security breach triggered the total evacuation of Hartsfield 
and a temporary halt of incoming and outgoing air traffic. That 
action caused a ripple effect of delays and flight 
cancellations. I might add that I have first-hand knowledge of 
those delays since I spent some quality time on the tarmac of 
about three and a half hours marooned along with 60 other 
aircraft due to this incident. It was a scary time; the initial 
reports were that the individual had a gun. We were all on the 
tarmac there, no aircraft was allowed to leave Hartsfield or to 
be boarded at Hartsfield. The only aircraft allowed to land at 
Hartsfield were those running out of gas. It was a very tense 
time. We forget that, but I can remember being in that aircraft 
and we all did not know exactly what was happening until hours 
later.
    I would like to stress that despite those delays, the 
system here at Hartsfield worked. Hartsfield correctly followed 
the FAA directive put in place after September 11 that required 
airport lockdown until airport security could be assured. The 
November 16 incident revealed a glaring loophole in the system: 
an intentional security violation aboard an aircraft actually 
is a Federal crime. But a willful breach of an airport security 
checkpoint is punishable only by local criminal penalties and 
Federal civil penalties.
    Just as we have at last stepped up to the plate to assure 
greater uniformity and greater accountability through 
Federalizing the airport security workforce, I believe it is 
the responsibility of Congress to address this shortcoming in 
our Federal laws. Accordingly, later today, I will introduce 
legislation to make willful violations of airport security 
checkpoints a Federal crime. We should send the message loud 
and clear that airport business is serious business, that if 
you come to a U.S. airport for mischief or for folly, you will 
pay the consequences. During this hearing, I hope to get input 
on my bill from our panelists and suggestions on how we can 
best deter such action in the future.
    We have an outstanding line up of panelists today who are 
here to address the all-important issue of aviation security 
which, as we have recently learned in the most painful way, is 
a matter, as I said earlier, of national security.
    I look forward to the testimony of our distinguished 
panelists and I would like to now recognize the Honorable 
Michael Jackson, Deputy Secretary of the U.S. Department of 
Transportation.
    Mr. Jackson, welcome.

       STATEMENT OF MICHAEL P. JACKSON, DEPUTY SECRETARY 
        OF TRANSPORTATION, DEPARTMENT OF TRANSPORTATION

    Mr. Jackson. Senator Cleland, thank you for making me 
welcome. It is great to be back in Georgia and I will try to 
combine the bulldog determination with a little bit of that 
technical ingenuity that Georgia Tech is famous for and get a 
well-rounded approach to these aviation security issues.
    Senator Cleland. That is a good political answer.
    [Laughter.]
    Mr. Jackson. I learned quickly from you, sir.
    Senator Cleland. That is right.
    Mr. Jackson. Senator, what I would like to try to do today 
is just do a quick overview and with your permission, I would 
like to submit my prepared remarks for the record.
    Senator Cleland. No objection, so ordered.
    Mr. Jackson. Then I will talk about two things--just a 
summary of the points that you made and one layer of more 
detail about the measures that we have taken since September 11 
to improve aviation security, and then talk a little bit about 
how we are going to implement this new landmark legislation on 
aviation and transportation security, and be happy then to 
answer any questions that you might have about the particulars.
    Last week, President Bush visited the aircraft carrier 
Enterprise to thank some of our men and women in uniform for 
the job that they were doing on the anniversary of Pearl 
Harbor, when he remembered service to our country of the World 
War II generation, and he said, ``We are commissioned by 
history to face freedom's enemies.'' And Senator, I think you 
are absolutely right to say that the war against terrorism is 
ongoing and will be fought across transportation network of 
aviation and other transportation modes to make sure that we 
protect the country against the type of incursions that we 
witnessed on September 11.
    I would like to tell you just briefly, to reinforce what 
you were saying, that we have put in place since September 11 
very dramatic efforts to improve aviation security. This new 
landmark legislation, which the Commerce Committee pushed 
forward and advocated, is a substantial set of tools which will 
increase our capacity to improve transportation security. We 
must do two things. We must have world class security and world 
class customer service. We have to be able to make the airline 
system work well for the passengers. Our customers, as we 
launch this new system of aviation security under Federal 
management and with Federal employees, must understand that the 
taxpayers who are using the airline system are our customers 
and we are committed to providing world class security without 
compromise, while trying to make certain that we move the 
system in an effective and safe, efficient fashion.
    Right after the events of the 11th, we did a series of 
things, really putting into place over 50 specific actions over 
the course of several weeks. On the first afternoon when the 
Secretary of Transportation ordered all of the aviation system 
down to the ground and stopped, to protect and assess what we 
were facing, we faced a series of incremental steps to put our 
system back together and put it up in increased security. And 
over the last 3 months, we have repeatedly added measures and 
assessed the ones that we initially deployed.
    I believe that the airline industry did a magnificent job 
that day and I would be remiss not to say today that the 
industry, the men and women who worked on the airplanes, who 
worked on the ground to make that work efficiently, were real 
heroes that day also and I certainly believe that the air 
traffic control staff at FAA worked in great harmony with them 
to do the same.
    So after we got them down, to get them back up and do it 
with enhanced security. We fundamentally put in place measures 
that worked with airports and with airlines.
    Let me say just a little bit of an overview about some of 
the highlights of both and then we will--I would be happy to 
answer any questions about specific measures as I go through 
it.
    On the airport side, we basically took the passenger--a 
process map of the passenger experience at the airport and 
looked at each point of entry and along the way introduced 
measures that would tighten up and strengthen security. We put 
manpower, technology and processes in place to increase 
security at airports. We worked with our airport partners who 
helped us figure out how to do some of these things in a more 
effective fashion and we have refined the tools that we 
initially put in place over the last several months.
    At the checkpoints where you come in, there are new 
measures. On the ground, to provide a barrier against possible 
bomb, we created a zone. We limited and then refined the 
process of using curb side check-in. We have placed limits on 
checked bags and the processes that we are using to move them 
through the system. We have put a significant number of process 
changes in at airport checkpoints, at checkpoints where we move 
passengers through the screening process, new staff from the 
airlines, National Guard deployments, new procedures to be used 
and new tools to be deployed at those checkpoints.
    In the restricted areas of the airport and the secure 
zones, we have put a whole series of processes in place to 
manage the security operation more effectively, including 
screening at the baggage points and screening at the gates of 
departure. So we have gone back behind the scenes of airport 
operation and done a variety of other things as well. We have 
put restrictions on the people who work at airports, they must 
go through the same check-in process and screening process. We 
put in place new rules substantially to enhance the background 
checking that is conducted and required for working at 
airports. We have looked at vendors who service airplanes in 
catering and other services and provided stricter controls over 
access.
    We have looked at a variety of things on the aircraft 
themselves and the airlines have really done terrifically well 
at the door hardening exercise of putting bars and locks on 
doors to provide that strong barrier against incursions through 
the cockpit.
    So with a variety of these tools, we have tried to 
reinforce, enhance, improve aviation security. There is much 
work to be done still. We have this new tool of the Aviation 
and Transportation Security Act to help us. So maybe I could 
take just a few moments to explain what this Act does and how 
we awre proceeding to implement it.
    Essentially, the Act provides a new Under Secretary of 
Transportation reporting directly to Secretary Mineta the tools 
and the resources to Federalize the screening process for 
passengers and bags at 429 airports nationwide. We are going to 
put into place a substantially enhanced team of people and a 
substantially enhanced technology deployment to look for 
explosives and to test access to the secure zone and to the 
aircraft. We are going to continue to put money into technology 
innovation that will strengthen the cockpit security on board 
and we will have broad authorities granted to us by Congress to 
regulate the safety and security of the aircraft and the 
airports.
    So this is a very large undertaking. As you know, Senator 
by the end of next year, we will have deployed at airports 
nationwide this new Federal force and we will have put a 
considerable amount of new technology into improving airport 
security.
    Let me talk just a moment about how we are going to try to 
do that. First, there is an important point about how we are 
going to take this in a deliberate fashion, but a fashion that 
understands the urgency of what we have to do. We are going to 
pull together from the private sector, from across the Federal 
Government and from within the Department of Transportation the 
best minds tehat we can find. We have been planning and putting 
in place a transition team since before passage of the 
legislation so that upon its passage, we would have the tools 
and the process to handle this.
    We have organized and put in place some process management 
techniques that have been used in the private sector 
continuously with large corporations and in some of the large 
deployments of forces in war time and peace time in the Federal 
Government. As you know, this is an unprecedented deployment of 
many, many thousands of individuals to airports around the 
country, but we have put in place a very firm process of how to 
do it.
    I would like to describe just a few components of that 
process, if I could. First of all, the leader of this team on a 
day-to-day basis will be the new Under Secretary for 
Transportation Security and the Secretary and the President are 
working closely and with great focus on getting us a fine 
individual to run this new operation.
    In the meantime, we have established a war room with a 
process executive that we have appointed to manage the overall 
processes that we have put in place. We have a series of about 
a dozen go-teams that are looking at specific problems. For 
example, how do we get explisive detection machines into 
airports in the 1-year time period provided for by the law. 
There is not enough of them if we just manufacture them in the 
current process, and putting them in is a complex process as 
well. So we have borrowed some folks from some of the Defense 
Department agencies who have done this type of work, we have 
borrowed folks from the private sector, we have taken a team of 
people internally and we are mapping out that process right 
now.
    Similarly, there are about another eight to nine to ten of 
these go-teams working on various aspects of significant 
problems or issues that must be captured and dealt with 
quickly.
    On top of that, we are using classical process mapping 
techniques to look at four categories of vulnerability--the 
passengers, air cargo, facilities and people who work in the 
facilities. So what we will do is we will map out from the time 
someone makes a reservation on the process side of passengers, 
for example, to the time that they finish their trip and we 
look at each point along the way from the reservation system to 
the arrival at the airport, check-in, screening, departure at 
the gate, experience on the airline. And we are putting in 
place tools and staff to address the vulnerabilities at each 
point along that process map. Then we will go to airports 
around the country with that basic process map and look through 
the specifics of that airport and make certain that we have 
refined it, adjusted it and worked it.
    I had the pleasure of spending several hours last night at 
Hartsfield, it is my second trip to Hartsfield within the last 
4 or 5 months and we had a terrific walk-through of security 
challenges and processes and issues there. We are going to be 
mapping that type of process all around the country.
    I think one of the cornerstones as we take on passengers, 
cargo, people who work at airports and the infrastructure is 
going to be something that you mentioned, Senator, the Federal 
security managers. Federal security managers are the person 
representing the Federal Government at each of these airports 
that owns in their guts, in their hearts, in their minds, the 
security requirements that the Federal Government must address. 
We have some terrific people working for us in the FAA who are 
doing these jobs today, but we will be competing as we move 
into this new environment with Federal management for the best 
people possible to put in each of these airports and we will be 
training them carefully and supporting them with tools to make 
this work.
    I would just say one last thing, try to talk about at the 
highest level how we manage this transition. We are looking at 
it really in three phases. In the first phase, we have, through 
the early part of next year, essentially the ongoing operation 
managed by airlines who contract out to third parties for 
security at airports and this process worked on conjunction 
with the ongoing responsibility for airport authorities.
    In a second phase, beginning late January and proceeding 
for several months, the Federal Government will literally 
contract with those same third parties. No one is guaranteed to 
have the same job, you have to prove that you can meet the 
Federal standards. But we will have Federal officials 
overseeing these third party contracts. We will put in place 
new training requirements, we will put in place new eligibility 
requirements for people who are going to be hired after that 
transition period. And we will work through, during those 
several months, a transition to the third phase in which we 
deploy Federal workers to manage these jobs.
    And so with this broad overview we will be managing the 
transition from what we have today to the new and substantial 
responsibilities we have ahead of us.
    Senator, I look forward to working very closely with the 
Committee and with you personally as we manage this transition. 
We are committed to these two twin goals--world class security, 
world class customer service. We can do this, it is not easy, 
but we are going to do it and we are going to nail it just 
right.
    [The prepared statement of Mr. Jackson follows:]

      Prepared Statement of Michael P. Jackson, Deputy Secretary 
            of Transportation, Department of Transportation

    Senator Cleland and Members of the Committee: It is a pleasure for 
me to be here in Atlanta today; I was given a very special tour of 
Atlanta's Hartsfield International Airport after I landed there last 
night, and was particularly impressed with the baggage operations at 
the world's busiest airport. These are quite impressive, and will serve 
as a model for us.
    My statement today is devoted to the most pressing issue facing the 
Department of Transportation today: security, particularly for our 
aviation system. To describe our ongoing and planned efforts in this 
area, I have organized my statement as follows:
    <bullet> A description of the actions we have taken in the wake of 
the tragic events of September 11 to immediately improve safety 
throughout the Nation;
    <bullet> A description of how we are responding to the Congress' 
leadership in passing landmark aviation and transportation security 
legislation, and are already implementing key provisions of that Act; 
and
    <bullet> An overview of our approach to standing up the new 
Transportation Security Administration (TSA), a massive undertaking 
that will require a sustained effort for at least the next year.

               ACTIONS TAKEN IN THE WAKE OF SEPTEMBER 11

    The tragic events of September 11, in addition to being an attack 
on our very way of life, were a multi-pronged assault on a critical 
component of our economy: the Nation's air transportation system. To 
restore confidence in the system and provide a safe environment for the 
traveling public, the Department, under the leadership of Secretary 
Mineta, took the following actions immediately to improve security at 
our Nation's airports and airlines:
    <bullet> Increased patrols on and around airports;
    <bullet> Increased terminal inspections, typically using highly 
trained canine teams;
    <bullet> Instituted more intensive random ID checks throughout the 
airport: at the ticket counter, the screening checkpoint, and the 
departure gate;
    <bullet> Increased monitoring of vehicular traffic and removal of 
unauthorized vehicles;
    <bullet> Allowed only ticketed passengers and authorized 
individuals beyond screening checkpoints; and
    <bullet> Instituted a zero tolerance policy at all security 
checkpoints, a policy that resulted in the intensive precautions taken 
here at Hartsfield a few weeks ago.
    In addition, we have tightened our security procedures with respect 
to the Nation's air carriers in the following ways:
    <bullet> Steadily increased the number of Federal air marshals on 
domestic flights;
    <bullet> Adjusted CAPPS criteria for more intensive screening of 
all passengers to identify potential threats;
    <bullet> Discontinued off-airport check-in;
    <bullet> Required thorough inspection of all employee IDs;
    <bullet> Required thorough inspection of all aircraft, including 
the interior and the galley, each day before passenger boarding begins; 
and
    <bullet> Imposed new restrictions on jumpseat flights.
    In the wake of Sept. 11, we also sought and received advice from 
experts in the fields of airport and aircraft security, law 
enforcement, and airline and airport operations--the Secretary's Rapid 
Response Teams. These efforts resulted in two reports--reports that 
identified critical areas where DOT should focus its attention and 
which provided specific recommendations as to how aviation security 
could be improved.

  DOT ACTION ON KEY PROVISIONS OF TRANSPORTATION SECURITY LEGISLATION

    As you know, the recently enacted Aviation and Transportation 
Security Act requires the Department to not only stand up a new agency, 
but also to make significant changes in our method of securing the 
Nation's transportation system. The Act provides great new tools to 
accomplish this, and to that end we have taken the following steps in 
the 3 weeks since President Bush signed the bill:
    <bullet> Reduced operational access points at airports;
    <bullet> Added Federal law enforcement officers at airports;
    <bullet> Overseen a large deployment of National Guard troops at 
more than 400 airports;
    <bullet> Increased distribution of name alerts;
    <bullet> Required continuous use of all hand-wand metal detectors, 
explosive detection systems, and hand-checking of baggage, which means 
that even passengers not selected by CAPPS are subject to random 
search;
    <bullet> Strengthened cockpit doors on nearly the entire US fleet, 
and put in place additional procedures to guard the flight deck; and
    <bullet> Issued a final rule requiring all individuals with access 
to secure areas of airports, all screeners and all screener supervisors 
to be fingerprinted and undergo a criminal history record check if it 
has not been done in the past; and
    <bullet> Established a link to the Office of Homeland Security and 
other Federal agencies to assist us in protecting the aviation system.
    In addition, (1) we are close to completing the development of 
improved qualifications and training for screeners that will 
immediately improve security and form the basis for hiring high-quality 
TSA screeners next year; (2) we are working closely with the Nation's 
airlines to put a system in place for screening all checked baggage by 
mid-January, as the Act requires; and (3) we are assessing the 
airlines' current contractual arrangements with screening companies so 
that we may assume this responsibility on time next February.

                          STANDING UP THE TSA

    The job of standing up the TSA, a new Federal agency that will have 
sweeping powers, more than 30,000 employees, and the mission of 
protecting the Nation's entire transportation system, represents an 
almost unprecedented undertaking. As you would expect, President Bush, 
Governor Ridge, and Secretary Mineta have taken intense interest in the 
work we are doing. I would like to take this opportunity to briefly 
describe that work.
    Secretary Mineta has appointed me to head up a special task force 
charged with standing up the new agency, identifying all of our 
statutory requirements, and developing a modern approach to securing 
the transportation system. To complete the thousands of tasks that must 
be undertaken to open the doors of the TSA next year, we are following 
a time-tested process management approach that successful private 
sector companies around the world use every day to execute large-scale 
transactions, mergers, or critical activities. This approach has the 
following important attributes:
    <bullet> It enables us to prioritize our work according to the 
real-time needs of the system and the mandates of the statute: we have 
formed teams consisting of the leading experts from inside and outside 
the government to address issues on a very short timeframe, such as the 
60-day checked baggage requirement;
    <bullet> It allows us to develop a structure for the new agency 
that meets the needs of all the actors in transportation, at every 
level of every organization, and at every site in every mode: we have 
started now to develop plans for recruiting, hiring, training, and 
deploying thousands of screeners, Federal agents, air marshals, and 
other critical players;
    <bullet> It keeps our focus on the most important aspects of 
transportation security and the agency itself--processes and functions: 
techniques are in place to develop processes targeted to optimum 
protection of the transportation system, while ensuring that every 
function required of us, and even some that aren't, are included in the 
TSA.
    I would like to take this opportunity to say that restoring the 
public's confidence in the safety of our transportation system, and 
taking the necessary steps to promote and sustain safety over the long 
term is an open, inclusive effort that will consider, first and 
foremost, the requirements of passengers and industry, and will solicit 
the input of all who wish to contribute. In fact, a key aspect of our 
day-to-day operations is our cooperation with industry and 
communication with the Congress.
    It is important to reiterate as well that the Government's efforts 
are not just the work of one agency--far from it. For example, in just 
the few weeks since the bill was enacted, we have already solicited the 
assistance of the Departments of Defense, Justice, Treasury, the Office 
of Personnel Management and, of course, all parts of the Department of 
Transportation.
    In closing, let me say that although we have all been deeply 
impacted by the events of September 11--a direct hit on the 
transportation system we work every day to improve--the Federal 
Government, led by the Congress, President Bush, and Secretary Mineta, 
has risen to the occasion. I have tried to capture this response in my 
testimony here today, and look forward to discussing it further should 
you or other Members of the Committee have any questions. Thank you for 
your time and for hosting me in this great city.

    Senator Cleland. Well, thank you very much, Mr. Jackson, I 
appreciate that. I think that is a very positive and healthy 
attitude--world class security and world class customer 
service. You know, the airlines are in the customer service 
business. They are in the security business but they are also 
in the customer service business. One of the reasons I 
supported the federalization of the checkpoints, the 700 
checkpoints at those more than 429 airports, was the 
professional level that we could get nationwide, a uniform 
professional standard.
    I have also recommended to Secretary Mineta and to the 
President in several letters--and I will mention to you today--
to consider a very great asset to the Federal Government, here 
in Georgia, in terms of training Federal law enforcement 
officials. The Federal Law Enforcement Training Center, better 
known as FLETC, is down at Glynco, down in Brunswick, Georgia. 
They train Secret Service people, they train Customs people, 
they train Border Patrol. They are the world class facility for 
training Federal law enforcement personnel. And I've suggested 
in my correspondence to the President and to Secretary Mineta 
that they either have those airport screeners trained there or 
train the trainers there, so then you could send those out 
around America to train the workforce. The point is, I think 
you have a built in asset here that I just recommend that you 
seriously consider it, because those people every day focus on 
training Federal law enforcement personnel and they have for 
years.
    Also, that center is familiar with the intricacies of all 
the other Federal law enforcement personnel that are out there, 
which is the point of one of my questions here.
    In the scenario of attacks, a terrorist attack, biological 
attack, one of the things I am picking up on the Armed Services 
Committee and on the Governmental Affairs Committee and in 
testimony by Senator Nunn when he talked about his 
participation in an exercise called Dark Winter which was run 
by Johns Hopkins in June about a smallpox attack on America, 
that in the early phases of an attack, it is somewhat, shall we 
say, bureaucratic chaos. That the challenges are coordination, 
cooperation and communication.
    I hope that in this legislation, we have outlined layers of 
authority and established in effect a protocol so that the 
system can deal with an attack or a breach of security and so 
forth. In other words, when something happens, everybody knows 
what their role is. The problem with say a terrorist attack or 
a biological attack or chemical attack is there is certain 
chaos if you do not have an established protocol. Now there are 
60 different agencies as a minimum in the Federal Government 
that are in charge of, in effect, a piece of homeland security. 
We are just zeroing in on one of them here--aviation security.
    But in that Federal security manager at the airport, I am 
kind of curious--and you may not be there yet in your mindset--
but it does help, and one of the principles of war I have 
learned through the years is unity of command, that when 
something bad happens, people know what the chain of command 
is, they know who to go to, they know who to report to, they 
know who to communicate with, coordinate with and so forth.
    In your mind, do you see that Federal security manager at 
airports in America in charge of other Federal entities? Here 
at Hartsfield, we have got INS, we have got the Customs 
Service, we have got the FBI, you know, we have a lot of folks 
in addition to the APD, the Atlanta Police Department. So at 
least there is a large Federal presence here. Do you see that 
Federal security manager, if maybe not in charge, then at least 
the lead dog, the team leader that when something happens, the 
protocol is established that that person is immediately 
notified and everybody knows that that is the person to go to 
and then there is a protocol established as to who does what to 
whom.
    But I suggest that to you because in this whole world of 
response, one of the things I have learned is if there is unity 
of command and coordination already established in a protocol, 
that people know what to do. How does that match with some of 
your thinking about the role of the Federal security manager, 
who is a DOT employee answerable up the chain to the Deputy 
Secretary for Transportation Security?
    Mr. Jackson. I think you have got the same vision that the 
Secretary and I have as well, that this job is unique in that 
it must not only coordinate the security operation of the 
airport, but it must help us draw together all the Federal 
agencies who are working with the airport and to have this 
unity of command. It does not mean this person is going to be 
in the chain of command of the Customs Service, but it means 
that at the airport, this individual has to make certain that 
the Customs Service is able to have the type of access and have 
the type of plan necessary to react and that it is coordinated 
well with all the rest of the components of the Federal 
Government working at airports and with our local colleagues 
who are managing the airports and the airlines who are 
operating their networks out of these airports. So it is 
someone who must be--I am afraid I have to confess this one--
this one has to be a bulldog in this process. They have to say 
I have it on my plate to understand the full spectrum of 
things.
    I will tell you that since the events of the 11th and the 
creation of the Homeland Security Office at the White House, I 
have seen a tremendous amount of coordination. I have worked 
for three Presidents now and four Cabinet Secretaries and had a 
stint in the White House, and the cooperation among agenciees 
that I am seeing in these last few months is very intense and 
just unparalleled in the experience that I have seen in the 
executive branch. People are really working together. I will 
tell you just one short example of this. After the events of 
the 11th, we needed to expand dramatically our Federal air 
marshal program to put armed, undercover, trained agents in the 
air. And we borrowed professional law enforcement officers from 
all around the Federal Government--from Treasury, Customs, 
Secret Service, from the FBI, from Inspector Generals, from 
Fish & Wildlife, people who were trained and qualified to use 
firearms. So we are seeing tremendous cooperation. We have work 
to do to make sure that the chain of command scenarios are in 
place so that everybody knows how to pass information in the 
event of an incident.
    I will just say to you that FLETC is a part of our plan to 
be able to train and deploy the large number of Federal law 
enforcement officers who will be working at airports and the 
Federal air marhals that will be flying in aircraft. They have 
tremendous experience and talent and I met last week with the 
senior Treasury Department officials who oversee that program 
operation. We have had numerous meetings with FLETC, they are 
part of the team.
    Senator Cleland. That certainly is good to hear. I have 
been down there and they are just a great national asset.
    Mr. Jackson. That is a fact.
    Senator Cleland. And one that I think an agency like yours 
in a situation like this where you have to ramp up so fast, 
that you need the best and the brightest that have been doing 
it a long time, then I commend them to your attention. I 
appreciate your meeting with them.
    One of the things I would like to commend you on is your 
concept of multiple points of security, we will call it. I have 
had briefings--we have had briefings on the Commerce Committee 
from El Al and their whole concept of security--airport 
security, aviation security--has to do with layers of security, 
like peeling an onion.
    Mr. Jackson. Yes, sir.
    Senator Cleland. Starting, shall we say, at an outer 
perimeter and working more and more inward to, in effect, that 
moment when that individual boards the aircraft. And in your 
description of some of your own analysis of the pressure 
points, the checkpoints, where are we the most vulnerable, 
where do we need to strengthen.
    And I think that layer of security concept will really give 
us the redundancy that we need. As a young Signal Corps 
lieutenant going on active duty in the Army in the mid-1960's, 
I had a Colonel tell me something very wise. He said, 
``Cleland, the secret is the reliability of redundancy''. So in 
many ways, layering security, not just duplicative security, 
but layering various checkpoints, seems to be a concept that 
appears to work. El Al is a small airline. Our challenge here 
is a huge country, a huge aviation community and as of 
September 10, 650 million passengers a year and growing.
    Mr. Jackson. Yes.
    Senator Cleland. We had testimony earlier this year that we 
were going to have a billion people--a billion passengers 
flying in the next 4 or 5 years. Up until September 11, the 
challenge was where to put them all, enough air space, enough 
air traffic controllers, enough aviation traffic systems, 
enough capacity on the ground to handle it.
    But I will say that I think the key to confidence in flying 
again is the extent to which we are able to be successful in 
our security. I say we, now that aviation security is 
equivalent to national security, and now that in effect we, the 
Federal Government, are in charge, I feel like I am part of 
your team as well.
    Mr. Jackson. I feel that way too.
    Senator Cleland. And I hope so. We on the Commerce 
Committee take our oversight role very seriously, which is one 
of the reasons why we are having this initial aviation security 
hearing.
    Let me just ask you, talk to me a little bit about your 
understanding of how technology can help facilitate security. 
Obviously we have a greater role in terms of security, various 
checkpoints, layers and so forth; yet, there is technology out 
there that can expedite, speed up lines, waiting, whatever, 
pre-existing IDs, counterfeit-proof IDs, various things. Just 
tell me a little bit about some of the things that you are 
initially exploring in terms of technology. We have some 
examples of technology facilitation out in the lobby, but tell 
us a little bit about what you are looking at.
    Mr. Jackson. Well, I visited with interest the display of 
technology that we had out here with us today and the range of 
things that we are looking at is extraordinarily broad. We have 
put out a special request from the Department asking for 
technical ideas that can address various component parts of 
this problem and we had over 500 really top-notch ideas from 
major corporations, from individuals who had a great idea, and 
everything in between. They were for security screening 
devices, they were for biometric device deployment, they were 
for tools that we can use on board airplanes to increase the 
security of cockpits and the security of the flight crews that 
work aboard our aircraft.
    So we are really not stopping anywhere, but assessing 
around the globe and across the country what the best minds can 
bring to the table. We have a short-term job to do, but we are 
not looking at this as just deploy forces and get it over with 
and sigh and say, ``Oh, I did my job, I checked my box''. That 
is not our attitude at all. We are in this for the long haul. 
The threat is here for the long haul. We want to innovate 
aggressively but intelligently, we want to spend the taxpayers' 
money wisely, we are going to be spending an awful lot of it.
    So the technology component is just an indispensible 
portion of what we have to do to provide this what we are 
calling systems of systems, the integration of multiple 
redundant and useful systems along the way that will increase 
the probability that the bad guys are not going to be able to 
do their work.
    Senator Cleland. Let us talk about identification of the 
bad guys. One of the reasons that I supported a national 
professional, in this case Federal, system was because it was 
obvious that aviation security and national security were 
inextricably linked and that in effect our Federal management 
of aviation security had to be linked into an intelligence data 
base that in effect was an early warning system. If Interpol 
picked up something in Stockholm, then we in Atlanta were ready 
for them when they landed here, or at least on the alert and 
that when they started coming through the system, then the 
professional system began examining and tracking this person.
    My understanding is that under the new law, we run a 
background check on international passengers through the 
Customs Service.
    Mr. Jackson. Right now, we have already implemented early 
the provision that you are speaking of, which requires 
passenger manifests to be provided to the Customs Service in 
advance of passengers arriving for a flight into the United 
States. And the Customs Service is then able to take an 
integrated watch list and compare the passenger manifest 
against those watch lists. So that has already been implemented 
by the Customs Service in conjunction with this series of 
measures that the Congress has authorized.
    We had earlier at the Transportation Department, early 
afterwards, looked, for example, at the flight deck crews of 
foreign registered aircraft coming into the United States and 
have put in place some additional measures to be able to make 
sure that we know who are flying the aircraft into the United 
States, what their background is, establish their credentials 
and to work through that. Some of the work in this area is 
something that I could not talk about in an open forum, but it 
is to say that we are looking at the full spectrum of 
passengers and crews as we bring this new security system on 
line.
    We are also, I think, working much more focused with 
lessons learned from the 11th, to integrate various different 
watch lists and data base of information, data bases of 
information, from agencies, both domestic and from our allies 
abroad.
    Senator Cleland. Thank you. I understand that the new law 
directs the head of the FAA to establish pilot programs in at 
least 20 airports to test and evaluate new technologies for 
airport security. Hartsfield is the busiest airport in the 
world and you have had an initial glimpse at some of this. I do 
not ask for a judgment now, but could Hartsfield be one of 
those airports that you might consider that would be in that 
top 20 to test run, to test out some of your new technologies 
for airport security?
    Mr. Jackson. We are going to put in place--a competitive 
grant program is going to be the vehicle by which we run these 
pilot programs and it will be very important for the large 
airports with the significant volume and the complexity of 
issues to be active participants in that grant program so we 
can deploy the high end solutions to make sure that we have 
tested them rigorously. I can just say without having announced 
the details of the program that we would be delighted to work 
with Hartsfield should they wish to apply for some of this 
pilot experience with us.
    Senator Cleland. I am sure Ben DeCosta and his staff have 
heard that. And with that, I think it would be a good idea to 
take about a 5-minute break and go to our second panel.
    Mr. Jackson, thank you very much for your willingness to 
come and be with us today. This is the first aviation security 
hearing after passage of the aviation security bill and I am 
sure it will not be the last. Thank you for working with us.
    I will say, just a commendation to those incredible people 
from Norm Mineta on down, as soon as the events of September 11 
unfolded, the United States Department of Transportation and 
the FAA and the pilots of America, the air traffic control 
people, everybody involved in the aviation system did an 
amazing thing. Within 2 hours, they landed every aircraft in 
America safely. And who knows but what that might have 
prevented another mishap and have saved lives. So that was an 
incredible achievement and yet our task is even greater now, to 
secure the nation's airways so that our public can get back to 
flying again, which is what we all want to do.
    Thank you, Mr. Jackson, for being with us.
    Mr. Jackson. Thank you very much.
    Senator Cleland. We will take a 5-minute break.
    [Recess.]
    Senator Cleland. We will come back to order here. We will 
have our panelists take their seats, if you will. Thank you 
very much for coming, gentlemen.
    We would like to lead off today with Mr. Ben DeCosta, who 
is on the front lines of aviation security here, running the 
busiest airport in the world. We are delighted to have him here 
today and some members of his security team, Colonel Brooks and 
Richard Duncan.
    Mr. DeCosta, would you like to share with us some thoughts?

  STATEMENT OF BENJAMIN R. DECOSTA, AVIATION GENERAL MANAGER, 
            HARTSFIELD ATLANTA INTERNATIONAL AIRPORT

    Mr. DeCosta. Good morning, and thank you. It is a pleasure 
being here with you. We very much appreciate the focus and 
emphasis that you have given airport security.
    As you mentioned in your opening remarks, Hartsfield is the 
largest economic generator in the southeast and the busiest 
airport in the entire world. I appreciate this opportunity to 
participate in this hearing on these matters of immense 
importance.
    I have abbreviated my testimony for the purposes of this 
hearing and would like to request that the entire testimony be 
submitted for the record.
    Senator Cleland. No objection, so ordered.
    Mr. DeCosta. Few topics are as important to our Nation 
right now as airport security. In the aftermath of September 
11, it is essential that we do all we can to bolster the 
security at our nation's airports and restore the confidence of 
the traveling public.
    As the world's busiest airport, more than 80 million 
passengers annually pass through our gates. We want to do 
everything we can to ensure the safety of those passengers and 
visitors.
    Security has always been and will continue to be a top 
priority at Hartsfield. In 1999, the Atlanta City Council 
encoded Federal security regulations into our city ordinances 
which has allowed Hartsfield to assess fines and other 
penalties against companies and individuals who violate our 
security rules.
    For more than 2 years, Hartsfield has given employees 
financial incentives also to challenge workers in secured areas 
who lack proper identification and our security checkpoints are 
among the world's most effective with some of the lowest error 
rates in the nation, despite the fact that we screen tens of 
millions of people every year. Security, therefore, has always 
been of high importance to us at Hartsfield.
    In the wake of September 11, we have redoubled our efforts 
to make the airport secure and also to reassure the traveling 
public. We have fully implemented each and every Federal 
security regulation and measure and bolstered them with 
security reinforcements from the Atlanta Police Department, 
from Federal law enforcement agencies and from neighboring 
municipalities such as Clayton County.
    We have welcomed the deployment of the Georgia Sky Guards 
to help monitor security screening operations. Here in the 
audience today is Colonel Bill Thomas, who is the leader of the 
National Guard at Hartsfield. Currently, National Guardsmen are 
employed at checkpoints and on the concourses. Their presence 
enhances the confidence of the traveling public.
    We also welcome enactment of the Aviation and 
Transportation Security Act and the subsequent creation of a 
Transportation Security Agency. We are confident those measures 
will further enhance our security efforts and we are hopeful 
they will be effective in securing additional funding for 
airport security.
    In your opening remarks, and I have heard you say that 
September 11 has really hurt the airlines and the aviation 
industry. I would just like to remind everyone that the 
airports have also been hurt with increased expenses and 
lowering of our revenues.
    As you know, funding for enhanced security is of utmost 
importance. Hartsfield has devoted tremendous resources to 
fully implement the new security measures, even as revenues 
have fallen due to reduced air travel. We are allocating more 
than one million dollars per month on increased law enforcement 
alone. Unlike air carriers, airports have not received Federal 
funding to offset the increased costs of doing business in a 
post-September 11 world. We need your help to ensure that 
airports receive funds earmarked specifically for enhanced 
security. In the past, security projects have had to compete 
for funds with other airport improvement projects. We would 
like to see airport funding remain at current levels while 
Congress creates a separate program to fund aviation security 
improvements.
    Airports are the major hubs of our nation's transportation 
system and it is essential that we invest in security of those 
facilities and the safety of those who visit them.
    The Aviation, Transportation and Security Act, combined 
with the necessary funding, will make tremendous in-roads in 
bolstering airport security. The Act, however, contains 
deadlines that the Transportation Security Agency, air carriers 
and airports may find difficult to meet. Some say the deadlines 
are impossible. Most notable are the requirements to screen 100 
percent of checked bags within 60 days and the deployment of 
explosive detection systems within 1 year. Obtaining the 
necessary personnel to meet the 60-day requirement could be 
very, very problemmatic. There are also concerns about the 
physical requirements--that means the facilities, terminal 
facilities--and the lack of facilities to accomplish the 
deployment of these explosive detection devices. My staff 
anticipates that we would need somewhere north of 60 such 
machines to satisfy the peak demands at Hartsfield. Our 
engineers and planners are reviewing space requirements, 
facility designs and other issues to support the installation 
of new equipment as it becomes available.
    We applaud provisions of the Act that will add $2.50 to 
every flight to pay for security. Again, we hope Congress will 
restrict the use of those funds to airport security 
requirements. As you know, we currently collect funds to 
support Federal inspections at our airports. However, we have 
faced a challenge of low Federal staffing levels during peak 
international travel times. This is true of both INS and 
Customs staffing. We cannot afford to face those obstacles when 
it comes to the federalization of checkpoint screening.
    Hopefully, the new funds will provide for sufficient 
numbers of Federal screeners to ensure that the traveling 
public will spend less than 10 minutes in line at any security 
screening point. Again, echoing what Mr. Jackson said, world 
class security and world class customer service. Our customers 
are demanding faster, better and more secure services at ticket 
counters, security screening areas and other areas of the 
airport. We hope that the Transportation Security Agency will 
embrace customer service as one of its security cornerstones. 
It is obvious they will, since Secretary Mineta has said so.
    Finally, Section 114 of the Act must be expanded to punish 
individuals who violate security rules and regulations at 
airports. Currently, the Act increases penalties for 
individuals who assault or intimidate security personnel at 
airports or on aircraft; however, there are no Federal 
penalties imposed on individuals who commit other serious 
security breaches. A recent breach in our security apparatus, 
for instance, revealed that there are no Federal penalties for 
such breaches of security.
    Airports are being asked to bolster security and taxpayers 
and travelers are being asked to spend billions for additional 
security measures to ensure the safety at our airports and yet, 
flagrant, willful violations of those security measures 
apparently are not against the law. We at Hartsfield believe 
that they ought to be. We agree with you, Senator Congress must 
enact tough Federal penalties that will deter individuals from 
breaching airport security. Such breaches are a threat to the 
safety of thousands of passengers and visitors. They destroy 
public confidence in security systems taxpayers and travelers 
have spent billions of dollars to erect. Security breaches 
inconvenience thousands while costing millions of dollars in 
flight delays and lost productivity. They ought to be against 
the law and there ought to be strong penalties for those who 
violate airport security.
    I would like to thank you again for allowing Hartsfield to 
join you in this important hearing. We are proud of our efforts 
to increase security while maintaining our ability to provide 
quality customer service. We appreciate your focus, Senator 
Cleland, and that of the Committee on this important topic and 
for your efforts to help enhance security at our nation's 
airports. We look forward to working with the Committee and the 
Federal agencies to help re-establish the public's trust and 
confidence in safe and efficient air travel.
    [The prepared statement of Mr. DeCosta follows:]

 Prepared Statement of Benjamin R. DeCosta, Aviation General Manager, 
                Hartsfield Atlanta International Airport

    Good Morning, I am Ben DeCosta, the Aviation General Manager for 
Hartsfield Atlanta International Airport. I would like; to thank 
Senator Cleland and the Senate Committee on Commerce, Science, and 
Transportation for holding this hearing to shed light on this critical 
issue. Few topics are as important to our Nation right now as airport 
security. In the aftermath of September 11, it is essential that we do 
all we can to bolster the security of our nation's airports and to 
restore the confidence of the traveling public. As the world's busiest 
airport, more than 80 million passengers annually pass through our 
gates. We want to do everything we can to ensure the safety of those 
passengers and visitors.
    Security has always been a priority at Hartsfield, and we have been 
very proactive in the implementation and enforcement of aviation 
security rules. In October 1999, we implemented two programs aimed at 
improving employee security awareness and compliance with rules. Our 
first program focused on security compliance and enforcement, while the 
other program focused on rewarding individuals for actively 
participating in our security program. We asked the Atlanta City 
Council to integrate into the City's Aviation Code the Federal Aviation 
Regulation's individual responsibility provisions. This ordinance 
allows me to assess monetary and other penalties against companies and 
individuals for violating security rules. As a result of this 
ordinance, we have seen a much higher level of compliance with security 
rules by airport employees.
    Additionally, we instituted the Hartsfield Harry Program to reward 
employees for taking an active role in airport security. Hartsfield 
Harry encourages airport and airline employees to challenge personnel 
found on the ramp without proper identification. Our security staff 
conducts tests throughout the airport to monitor compliance with 
security regulations. If an employee challenges ``Harry,''--a security 
staffer who has entered a secured area without wearing proper 
identification--that alert employee receives a $25 check and becomes 
eligible for a quarterly drawing that awards $500 to the winner. Our 
compliance and enforcement program and Hartsfield Harry Program are two 
examples of our commitment to creating a safe and secure environment 
for the traveling public and airport employees.
    In the wake of the September 11, 2001 tragedy, we have reviewed our 
security posture and have fully implemented all necessary security 
measures to further enhance our security program. On September 11, we 
increased our law enforcement support by 300 percent, thanks to the 
tremendous support received from the city of Atlanta Police Department, 
Federal law enforcement agencies and other local municipalities. In 
fact, the Clayton County Police Department is actively patrolling the 
outer perimeter of the airport. The mutual aid received from these 
agencies allowed us to quickly evacuate the airport, search the 
terminal building and prepare the airport for the reception of 
passengers on September 13, 2001. We also welcomed the deployment of 
the Georgia Sky Guards to assist in the monitoring of security 
screening operations. We were pleased when Guardsmen were given 
authority to support our law enforcement efforts in other areas of the 
airport, such as on the concourses.
    The airport community has responded positively to our increased 
security awareness through its involvement in the Airport Security 
Consortium. Our consortium, under the leadership and direction of our 
Aviation Security Manager, Richard Duncan, is meeting regularly to 
review security directives and assess their impact on airport 
operations. The consortium motto is ``Security is Everybody's 
Business;'' therefore, it insists on the complete involvement of all 
partners while implementing security measures. The consortium developed 
plans for revalidating security badges, searching incoming vehicles and 
reducing the number of access portals while maintaining our ability to 
provide quality customer services to our passengers and employees. We 
have devoted a tremendous amount of resources to ensure the full 
implementation of the additional security requirements, even though our 
revenues have decreased as a result of the reduced air travel. We are 
spending more than a million dollars per month on increased law 
enforcement coverage. Unlike the air carriers, airports have not 
received Federal funding to offset the increased cost of doing business 
in a post September 11th environment. We need your help to ensure that 
airports receive access to funds above the usual entitlement levels. If 
we were forced to use entitlement funds for special security needs, we 
would be forced to cut improvements needed elsewhere. We need a special 
security grant to offset the increased cost of security and unfunded 
mandates.
    We welcomed the enactment of the Aviation Security and 
Transportation Act and the subsequent creation of the Transportation 
Security Agency. We hope that the agency will streamline the process 
for airports to receive Federal funds for airport security 
improvements. In the past, security projects have competed with other 
highly visible and important airport improvement projects for the same 
pot of money. I would like to see the airport entitlements remain at 
the current level while Congress creates a similar entitlement program 
that would fund aviation security improvements. Since airports serve as 
the linchpin of our national transportation and commerce system, we 
must ensure that our Nation contributes to the cost of creating and 
maintaining a secure and safe environment.
    Although the Act is good in itself; it contains some extremely 
ambitious deadlines for the Transportation Security Agency, air 
carriers and airports. Most notable are the requirements to screen 100 
percent of checked bags within 60 days and the deployment of explosive 
detection systems within 1 year. I'm not sure if the agency or air 
carriers can obtain the necessary personnel resources to meet the 60-
day requirement. I have heard some discussions concerning the use of 
National Guard soldiers to fill the gap while the agency hires 
employees and acquires equipment to meet these challenges. 
Additionally, I'm concerned about the physical requirements and the 
lack of facilities to accomplish these objectives. After a recent 
briefing from the Federal Aviation Administration's new equipment 
integration team, my staff anticipates we would need 40 or more 
explosive detection system machines to satisfy our peak demands. Our 
engineers and planners are reviewing space requirements, facilities 
designs and other issues to support the installation of the new 
equipment: as it becomes available.
    The 60-day requirement for 100-percent bag screening will be 
difficult, if not impossible, to meet at this airport. Positive bag 
matches, hand searches and the use of K-9 teams are not real 
alternatives for solving this challenging task. We simply don't have 
the space necessary for positive bag matching and hand searches of this 
magnitude. Additionally, our K-9 teams must be available to respond to 
law enforcement concerns.
    We applaud the provisions of the Act that will add $2.50 to flight 
segments to pay for security. We also hope that Congress will restrict 
the use of these funds to airport security requirements only. As you 
know, we currently collect funds to support Federal inspections 
stations; however, we have faced the challenge of low Federal staff 
levels during peak international travel periods. We cannot afford that 
kind of challenge with security screeners; it is critical that we have 
sufficient staffing for screening stations. We hope that the collected 
funds would provide significant Federal screeners to ensure that the 
traveling public will spend less than 5 minutes in line at a security 
screening area. Our customers are demanding faster, better and more 
secure services at ticket counters, security screening areas and other 
areas of the airport. We hope that the Transportation Security Agency 
would embrace customer service as one of its policy cornerstones.
    Section 114 of the Act must be expanded to punish individuals who 
violate security rules and regulations at airports. Currently, the Act 
increases penalties for individuals who assault or intimidate personnel 
performing security duties at airports. However, there are no Federal 
provisions to punish individuals who commit other serious security 
violations. When a football fan bolted down an escalator recently 
without subjecting himself to the screening process, we had to evacuate 
and re-screen all passengers at the airport. This process took over 3 
hours, interrupted the travel plans of tens of thousands of customers 
and cost the air transportation system millions of dollars. After 
finding the individual, it was very disheartening to learn that he had 
not violated a Federal law. Airport operators must have the support and 
backing of the Federal penal system to ensure that individuals are 
punished for failing to comply with Federal security rules. We must 
have security deterrence that discourages individual violators. We 
believe that a Federal law against airport security infractions would 
send the right message to the general public.
    Finally, Hartsfield Atlanta International Airport would like to be 
one of the 20 airports selected to test and evaluate new and emerging 
technology, including biometrics, for providing access control and 
other security protections for secured areas of airports. If the 
technology works at the world's busiest airport, it will work at other 
airports, too.
    In closing, I would like to thank the committee for choosing 
Atlanta as the site for this hearing. We are proud of our efforts to 
increase security while maintaining our ability to provide quality 
customer service to our customers. We have devoted the necessary 
resources to implement the new security directives at considerable 
expense of the city of Atlanta. We believe that airports must get some 
help from Federal agencies to continue the same level of support for an 
undetermined period of time. Furthermore, we will continue to work with 
all entities to help re-gain the public's trust in the aviation 
industry as the Transportation Security Agency assumes its role at this 
airport.
    Thank you again for allowing Hartsfield to join you in this 
important hearing. We are proud of our efforts to increase security 
while maintaining our ability to provide quality customer service. We 
appreciate your focus, Sen. Cleland, and that of the committee on this 
important topic, and for your efforts to help enhance the security of 
our nation's airports. And we look forward to working with the 
committee and Federal regulatory agencies to help re-establish the 
public's trust and confidence in safe and efficient air travel.

    Senator Cleland. Thank you very much, Mr. DeCosta, you are 
doing a great job with a real world class mission here.
    May I just say thank you for your support of legislation 
that I will introduce this afternoon when I get back to 
Washington to make it a Federal crime to deliberately breach 
security at an American airport. As I have said, I was out 
there on the tarmac and went through that experience and 
believe me, those of us on the aircraft would have had the 
penalty a little bit tougher. But I think that is the right way 
to go and thank you for your support.
    May I say that the $2.50 passed in the aviation security 
law will go to buttressing our aviation security. It is fenced 
off and it will go to that purpose. Additionally there were 
other monies, about $1.5 billion, in the aviation security bill 
that will go to airports for your enhanced security and we just 
finished with the Defense appropriations bill Friday night 
about midnight and there is another $200 million there for 
airport security.
    So there is going to be some monies coming down the pipe. 
The $1.5 billion I understand is on a competitive grant basis. 
So Mr. Jackson here invited you to apply for some of that.
    Mr. DeCosta. We certainly will and intend to.
    Senator Cleland. You and your staff will be aware of that.
    May I just recognize Mr. Robert Hightower, the Georgia 
Commissioner of Public Safety, who is with us today and the 
Governor's designee in leading homeland security here in 
Georgia, and Gary McConnell who is no stranger to challenges 
and difficult situations and disasters and attacks, mostly in 
terms of nature's revenge on us in terms of tornadoes and 
hurricanes and so forth--Gary McConnel, head of GEMA, we are 
glad to be with all of you.
    Let me just go back, Mr. DeCosta, to that incident on 
November 6 when an individual caused a mass evacuation at 
Hartsfield when he intentionally breached airport security. 
Hartsfield correctly followed FAA procedure in temporarily 
halting incoming and outgoing air traffic. The incident did 
cause long delays and flight cancellations.
    Can you tell me what, if anything, do you believe can be 
done to ensure that a similar breach does not happen in the 
future?
    Mr. DeCosta. Well, we have taken many steps. We had many 
lessons learned that day and have taken procedural, process 
steps, management steps to ensure that it does not happen 
again. We have employed some technology also. The public has 
heard us use the word Code Orange. We have strengthened our 
Code Orange procedures to ensure that it is far less likely 
that it would ever happen again.
    As I said to the Airport Consortium, which is a group made 
up of the airlines, my own staff, the FAA and other tenants, 
that our goal, our objective is to make sure that that never 
happens again at Hartsfield. It is a tall order. Under the zero 
defect, zero tolerance policy where any breach could result in 
evacuation of the airport, we are taking every step to avoid 
that eventuality. What people do not realize is that those 
thousands of people who had to be evacuated from the airport 
were themselves, at least those who were frail, were put in 
harm's way by what we had to do.
    Senator Cleland. Thank you very much. And I certainly hope 
that the implementation of the aviation security bill and the 
increased penalty, which I hope to get through the Congress, 
will certainly help in that regard. Thank you very much.
    Mr. John Selvaggio, Senior Vice President of Airport 
Customer Service with Delta, is here today. Thank you very 
much, John, for representing Delta. We would like to hear from 
you.

  STATEMENT OF JOHN SELVAGGIO, SENIOR VICE PRESIDENT, AIRPORT 
            CUSTOMER SERVICE, DELTA AIR LINES, INC.

    Mr. Selvaggio. Senator Cleleand, thank you for this 
opportunity to appear today before the Committee to discuss 
aviation security. I am John Selvaggio, Senior Vice President 
of Airport Customer Service. My responsibilities include 
customer service functions at Delta's 163 airports worldwide 
and related security functions.
    We are delighted that the Committee is holding this 
hearing, especially here in Atlanta, the home of Delta Air 
Lines and the site of Hartsfield Atlanta International, the 
world's busiest airport. We are also proud of the role you 
played, Senator Cleland, in sponsoring and passing the most 
comprehensive aviation security legislation in our nation's 
history. This landmark Act will build on the many comprehensive 
security programs established after the September 11th tragedy. 
It centers, appropriately, on a Federal, unified system. The 
Federal Government and the aviation industry have an enormous 
challenge in implementing the new law, but we are confident 
that we can deliver a safer and more secure system.
    The Act transfers all security functions and activities to 
the Federal Government under the new Transportation Security 
Administration. We wholeheartedly support this change and Delta 
will work cooperatively to hand over these responsibilities, 
including passenger and bag screening to the Federal 
Government.
    Senator Cleland, we are pleased to see your proposed 
legislation to make willful violations of airport security a 
Federal criminal offense. Secretary Mineta has stated that we 
must have zero tolerance of security breaches and we agree. 
Your legislation addresses a void in our criminal statutes and 
will prevent future violations of airport security, especially 
of the kind that crippled Atlanta Hartsfield a few weeks ago.
    The American public and the Congress are demanding to know 
what measures are being taken to ensure that aviation security 
is increased. I am pleased to report to you today much has been 
done and there is a lot more to come.
    Senator Cleland, since September 11, the U.S. aviation 
industry has worked assiduously with the Federal Government to 
undertake the following:
    <bullet> Carrying Federal air marshals (FAM's) on an 
increased number of flights.
    <bullet> Fortified cockpot doors.
    <bullet> Conducting random physical searches of airline and 
airport personnel.
    <bullet> Increasing airline staff to oversee security in 
airports.
    <bullet> Conducting random physical searches and hand wand 
or pat down passengers at security checkpoints and boarding 
gates.
    <bullet> Restricting carry-on baggage to one checked bag 
and one personal item for all flights.
    <bullet> Cooperating with various governmental agencies in 
sharing passenger information.
    <bullet> Comprehensive searches.
    <bullet> Using advanced technology, (AT) and explosive 
detection system technology (EDS) extensively which provide 
comprehensive explosive detection, in many of the country's 
largest airports.
    <bullet> Expanded searching of both checked and carry-on 
luggage.
    <bullet> Conducting extensive random screening of all 
checked and carry-on luggage.
    These steps have dramatically improved our industry's 
security and these measures have, in our view, helped restore 
public confidence in our system. However, with the passage of 
the Aviation and Transportation Security Act, additional steps 
will be taken to further enhance aviation security.
    As the Federal Government moves to implement the new 
security program, we must keep the customer in mind. This means 
refraining from constructing a security system that is so 
cumbersome and onerous that the traveling public begins to see 
air travel as a burden, rather than as a convenience. To this 
end, we are fully supportive of working with the government to 
develop a Trusted Passenger Program, which with laser-like 
precision, will focus additional security measures on those 
that warrant it most, while minimizing inconvenience for the 
majority of passengers who are not perceived to be a threat.
    Our customers at Hartsfield should not have to wait in line 
for hours to pass through a security checkpoint. We are pleased 
to see that Secretary Mineta is planning to establish customer 
performance standards. We applaud Secretary Mineta's statement 
that his goal in passenger screening is ``No weapon, no 
waiting.'' The Secretary stated,

          ``We will strive to develop a screening process that 
        prohibits weapons or other banned materials in airport sterile 
        zones without requiring a wait of longer than 10 minutes at any 
        security checkpoint for passsengers using U.S. airports.''

    The new system must focus more on people and less on 
things. We need to be smarter in processing passengers and 
baggage and learn from the screening programs currently 
employed by the Customs Service and INS. We must meet that goal 
in order to retain a vibrant, stable and customer-focused air 
transportation system.
    Senator, we face a national challenge, the likes of which 
we have not seen in our lifetime. Like the generations before 
us that made this country great by making it safe and secure, I 
know we are up to this challenge.
    Again, thank you for the opportunity to share Delta's 
testimony with this Committee. I would be glad to answer any 
questions you might have.
    [The prepared statement of Mr. Selvaggio follows:]
     Prepared Statement of John Selvaggio, Senior Vice President, 
            Airport Customer Service, Delta Air Lines, Inc.
    Senator Cleland, thank you for this, opportunity to appear today 
before the Committee to discuss aviation security. We are delighted 
that the Committee is holding this hearing, especially here in Atlanta, 
the home of Delta Air Lines and the site of Hartsfield Atlanta 
International, the world's busiest airport.
    We are also proud of the role you played, Senator Cleland, in 
sponsoring and passing the most comprehensive aviation security 
legislation in our nation's history. This landmark Act will build on 
the many comprehensive security programs established after the 
September 11 tragedy. It centers, appropriately, on a federally unified 
system. The Federal Government and the aviation industry have an 
enormous challenge in implementing the new law, but we are confident 
that we can deliver a safer and more secure system.
    The Act transfers all security functions and activities to the 
Federal Government under the new Transportation Security Agency. We 
wholeheartedly support this change and Delta will work cooperatively to 
hand over these responsibilities, including passenger and bag 
screening, to the Federal Government.
    Senator Cleland, were pleased to see your proposed legislation to 
make willful violations of airport security a Federal criminal offense. 
Secretary Mineta has stated that we must have zero tolerance of 
security breaches. We agree. Your legislation addresses a void in our 
criminal statutes and will prevent future violations of airport 
security, especially the kind that crippled Atlanta Hartsfield a few 
weeks ago.
    The American public and the Congress are demanding to know what 
measures are being taken to ensure that aviation security is increased. 
I am pleased to report to you today much has been done and there is a 
lot more to come.
    Senator Cleland, since September 11, the U.S. aviation industry has 
worked assiduously with the Federal Government to undertake the 
following:
    <bullet> Carrying Federal Air Marshals (FAM's) on an increased 
number of flights
    <bullet> Fortifying cockpit doors
    <bullet> Conducting random physical searches of airline and airport 
personnel
    <bullet> Increasing airline staff to oversee security in airports
    <bullet> Conducting random physical searches and hand wand pat 
downs of passengers at security checkpoints and boarding gates
    <bullet> Restricting carry-on baggage to one checked bag and one 
personal item for all flights
    <bullet> Cooperating with various governmental agencies in sharing 
passenger information
    <bullet> Comprehensive aircraft searches
    <bullet> Using advanced technology (AT) and explosive detection 
system technology (EDS) extensively, which provide comprehensive 
explosive detection, in many of the country's largest airports
    <bullet> Expanded searching of both checked and carry on baggage
    <bullet> Conducting extensive random screening of all checked and 
carry-on luggage
    With the passage of the Aviation and Transportation Security Act, 
additional steps will be taken to further enhance aviation security.
    As the Federal Government moves to implement the new security 
program, we must keep the customer in mind as we move forward. This 
means refraining from constructing a security system that is so 
cumbersome and onerous that the traveling public begins to see air 
travel as a burden, rather than a convenience. To this end, we are 
fully supportive of working with the government to develop Trusted 
Passenger Programs which, with laser-like precision, will focus 
additional security measures on those that warrant it most, while 
minimizing inconvenience for the majority of passengers who are not 
perceived to be a threat. Our customers at Hartsfield should not have 
to wait in line for hours to pass through a security checkpoint. We are 
pleased to see that Secretary Mineta is planning to establish customer 
performance standards.
    The new system must focus more on people and less on things. We 
need to be smarter in processing passengers and baggage and learn from 
the programs currently employed by the Customs Service and INS.
    We applaud Secretary Mineta's statement that his goal in passenger 
screening is ``No weapons, no waiting.'' The Secretary stated,

          ``We will strive to develop a screening process that 
        prohibits weapons or other banned materials in airport sterile 
        zones without requiring a wait of longer than 10 minutes at any 
        security checkpoint for passengers using U.S. airports.''

    We must meet that goal in order to retain a vibrant, stable and 
customer-focused air transport system.
    Senator, we face a national challenge the likes of which we have 
not seen in our lifetime. Like the generations before us that made this 
country great by making it safe and secure, I know we are up to this 
challenge.
    Again, thank you for the opportunity to share Delta's testimony 
with this Committee. I would be glad to answer any questions you might 
have.

    Senator Cleland. Thank you very much, Mr. Selvaggio.
    Do you feel that air travel is safer and more secure today 
than it was September 10?
    Mr. Selvaggio. I think to be perhaps a bit redundant, we 
have enacted so many new layers in the fabric of security, that 
it is vastly safer today than it was on September 10.
    Mr. Jackson mentioned several of the things we did. In my 
testimony, I also did. But I would like to point out that we 
have really put a lot of attention on the people. We have 
ensured that all Delta people and the contractors who service 
us on the ramp are inspected. We have revalidated all of our 
employee identification badges, including comparing all the 
names with the FBI watch list. We mentioned that we fortified 
cockpit doors on our airplanes. In addition to that, Delta has 
also introduced a prototype of a video system on board the 
airplane which enables the crew to see what is going on inside 
the aircraft.
    But essentially, our mission is that, you know, we want to 
ensure that the passenger screening process scrutinizes those 
passengers who we know the least about and we try to direct our 
efforts there.
    Senator Cleland. Do you think that the federalization of 
our system, the unified system, with its intelligence-gathering 
capability and intelligence-sharing capability will indeed be 
able to do exactly what you suggest, focus more on passengers 
rather than on things?
    Mr. Selvaggio. We think that is a very noble objective. We 
have got great technology today that can help us take a 
passenger from the time they book--you mentioned an example of 
a passenger boarding an aircraft in Sweden, Stockholm I think, 
and having the United States get a heads up while they are en 
route. We believe that we can start that process when a 
passenger books a reservation. We think that we have the 
technological capabilities to determine if that is a trusted 
passenger or not. We know that the resources available include 
the FBI watch list as well as other law enforcement data bases 
as well as Federal Government and airline data bases, and we 
think that if you can combine the data bases and the wealth of 
information we have with the technology we have, we think that 
we can go a long way to improving security before the customer 
or the passenger even gets to the airport.
    Senator Cleland. How do you think you are going to fare 
with the challenge of checking all checked baggage that goes in 
the belly of an aircraft within the next year, having December 
31 as that deadline? How do you think you will be able to meet 
that?
    Mr. Selvaggio. We believe it is going to be extremely 
challenging and that the screening process will have to include 
some element of increasing the computer assisted profiling 
system that we have today. We plan to use every means available 
from the sniff dogs to hand searching bags as well as the EDS 
machines that are available. However, as Mr. DeCosta mentioned 
at the Atlanta airport, for example, we are dreadfully short of 
the number of machines it would take. We are also very mindful 
of the fact that we do not want to make the system so 
burdensome for the customer that the customer will look for 
other means of travel.
    We are very aware that a good portion of our business 
travel here in Atlanta uses aircraft in lieu of driving. So if 
the cumbersome--if it becomes too cumbersome to check in an 
airport, we are concerned that people will drive. So we have to 
use every ability, every means we have to enhance this process 
and try to get that 10-minute check-in delay to be the maximum 
we can live with.
    Senator Cleland. Thank you very much.
    Mr. Tom Kalil, Senior Vice President of Customer Service is 
with us today representing AirTran and we are just delighted to 
have you here, Mr. Kalil. Some words, please.

  STATEMENT OF THOMAS KALIL, SENIOR VICE PRESIDENT, CUSTOMER 
                 SERVICE, AIRTRAN AIRWAYS, INC.

    Mr. Kalil. Thank you very much, Senator Cleland. I 
appreciate the opportunity to appear at this very important 
hearing.
    As a veteran of some 42 years of service in the airline 
industry, I want to thank you, Senator, on behalf of AirTran 
Airways, for your important work on the Aviation Subcommittee. 
We appreciate your tireless efforts to ensure the safety of our 
national air transportation system and we thank you for 
conducting this important hearing today here in Atlanta. I also 
would like to thank Secretary Jackson for his leadership on 
security and so m any other key issues affecting 
transportation.
    Senator, AirTran Airways is the second largest carrier at 
Hartsfield Atlanta International Airport. We flew more than 7.5 
million passengers last year and we are proud of the role of 
AirTran in providing affordable and efficient air service to 
the traveling public in 36 cities.
    I am also pleased to report to you today that despite the 
unprecedented challenges since September 11, AirTran is well 
positioned to succeed. We are among the very few airlines which 
are actually bigger today than we were on September 10th. We 
have increased our capacity by about 5 percent because we 
believe we can succeed in bringing our service to markets where 
service has been curtailed or abandoned by other carriers. We 
are particularly focusing our growth in small- and medium-sized 
markets.
    Our ability to succeed is largely the results of the 
sacrifice and hard work of our employees. Shortly after 
September 11, our pilots and mechanics, through a combination 
of pay reductions and work rule changes, voluntarily reduced 
payroll costs by almost 20 percent. Our corporate officers and 
other levels of management made similar sacrifices. That effort 
preserved our ability to survive and compete and it largely 
prevented mandatory layoffs. The compensation reduction for our 
pilots and mechanics has been restored, although pay cuts for 
corporate officers and management remain in place.
    I should add, Senator, that your strong support and 
successful enactment of the Aviation Safety and Stabilization 
Act was essential. Without the funding and the expectation of 
loan guarantees, I can assure you that most major and regional 
carriers could have been in bankruptcy by now, and the national 
economy would be in genuine chaos.
    However, we still have a way to go. Airlines will not 
regain their full passenger loads and levels of service until 
and unless the public has complete confidence in their safety 
and their convenience when they fly.
    At AirTran Airways, the security and safety of our 
passengers has always been our No. 1 priority and we have 
redoubled those efforts since September 11th.
    We are proud of the fact that AirTran Airways was the first 
carrier in the Nation to complete the installation of FAA-
approved cockpit door protection systems. Those doors cannot be 
rammed in, pulled open, or otherwise breached by a passenger. 
In addition, AirTran will be offering voluntary self-defense 
training to our flight attendants to provide additional 
security for our passengers and staff in the aircraft cabin.
    We are also proud that AirTran in Atlanta and thrutout our 
entire system fully trained all of our own employees in the 
security measures that were enacted after September 11, and we 
contract no employees to do that. The FAA has been very pleased 
with our results and have commended our personnel on a number 
of occasions.
    As we have seen from the exhibits today, technology is an 
important component of security. We are reviewing a number of 
promising new options ranging from new explosive and weapons 
detection devices to biometric identification cards for airport 
personnel and crew. We hope that the new retina scanning and 
fingerprint identification systems can be deployed. Later this 
identification could be extended to passengers who volunteer 
for security background check in order to receive expedited 
security screening at airports.
    Senator, at AirTran, we believe there are three pillars to 
good security. No. 1 is the requirement for highly professional 
personnel with the best possible training and supervision. No. 
2 is the best and most reliable security equipment and 
facilities. No. 3 is a consistent, comprehensive and workable 
Federal security plan.
    The heart and soul of the system is the quality and 
training of our people. No matter how good our equipment and 
procedures may be, they are only as good as the people who 
operate them.
    Technology is vitally important, particularly because it 
makes the system faster. People were patient during the busy 
Thanksgiving travel period, but patience will wear thin over 
time. Reliable technology--particularly the increased 
automation of our systems--is mandatory if we are going to 
bring passengers back to flying.
    We must keep in mind that our current security systems are 
operating on the basis of a 15 to 20 percent reduction in 
capacity imposed by most airlines. When those capacity 
reductions are restored, we must be able to safely accommodate 
the increased volume of passengers and bags without increasing 
security delays.
    In all respects, we must have a consistent, national 
system. An FAA security inspector in Dallas or Denver must 
impose the same high standards as one in Miami or Myrtle Beach, 
because we are only as strong as our weakest link. Our general 
impression from pilots and crew members is that security 
practices are inconsistent from airport to airport.
    Finally, Senator Cleland, I hope that Congress will revisit 
the issue of how to pay for this system. With the imposition of 
the new $2.50 security fee per flight segment, taxes and fees 
now comprise as much as 26 percent of the price of a ticket. 
This is as much as a 35 percent increase in the cost of ticket 
taxes to passengers. We know from our own experience that these 
marginal increases have a clear and negative impact on 
stimulating air travel.
    Senator, that concludes my remarks and again, I thank you 
for the opportunity to appear at your hearing.
    [The prepared statement of Mr. Kalil follows:]

      Prepared Statement of Thomas Kalil, Senior Vice President, 
                Customer Service, AirTran Airways, Inc.

    Senator Cleland, members of the commerce committee staff, and 
guests, I appreciate the opportunity to appear at this important 
hearing.
    As a veteran of some 42 years of service in the airline industry, I 
want to thank you, Senator, on behalf of AirTran Airways for your 
important work on the Aviation Subcommittee. We appreciate your 
tireless efforts to ensure the safety of our national air 
transportation system, and we thank you for conducting this hearing in 
Atlanta. I also would like to thank Secretary Jackson for his 
leadership on security and so many other key issues affecting 
transportation.
    Senator, AirTran Airways is the second-largest carrier at 
Hartsfield Atlanta International Airport. We flew more than 7.5 million 
passengers last year, and we are proud of the role of AirTran in 
providing affordable and efficient air service to the traveling public 
from 36 cities.
    I am pleased to report to you that, despite the unprecedented 
challenges since September 11, AirTran is well positioned to succeed. 
We are among the very few airlines that are actually bigger today than 
on September 10. We have increased our capacity by about 5 percent 
because we believe we can succeed in bringing our service to markets 
where service has been abandoned or curtailed by other carriers. We 
particularly are focusing our growth in small and medium sized markets.
    Our ability to succeed is largely the result of the sacrifice and 
hard work of our employees. Shortly after September 11, our pilots and 
mechanics, through a combination of pay reductions and work rule 
changes, voluntarily reduced payroll costs by almost 20 percent. Our 
corporate officers and other levels of management made similar 
sacrifices. That effort preserved our ability to survive and compete, 
and it largely prevented mandatory lay-offs. The compensation 
reductions for pilots and mechanics have been restored, although pay 
cuts for corporate officers and management remain in place.
    I should add, Senator, that your strong support and the successful 
enactment of the aviation safety and stabilization act was essential. 
Without the funding and expectation of loan guarantees, I can assure 
you that most major and regional carriers could have been in bankruptcy 
by now, and our national economy would be in genuine chaos.
    However, we still have a way to go. Airlines will not regain their 
full passenger loads and levels of service until and unless the public 
has complete confidence in their safety and their convenience when they 
fly.
    At AirTran Airways, the security and safety of our passengers has 
always been our No. 1 priority, and we have redoubled those efforts 
since the tragedies of September 11.
    We are proud of the fact that AirTran Airways was the first carrier 
in the Nation to complete the installation of FAA-approved cockpit door 
protection systems. Those doors cannot be rammed in, pulled open, or 
otherwise breached by a passenger. In addition, AirTran will be 
offering voluntary self-defense training to our flight attendants to 
provide additional security for our passengers and staff in the 
aircraft cabin.
    We also are proud that AirTran was the first carrier in Atlanta to 
fully train our own personnel in the new FAA security procedures. We 
hire no contract employees to conduct security checks--all of those 
personnel are AirTran employees. The FAA has been very pleased with our 
results and commended our personnel on a number of occasions.
    As we have seen from the exhibits today, technology is an important 
component of security. We are reviewing a number of promising new 
options, ranging from new explosive and weapons detection devices to 
biometric identification cards for airport personnel and crew. We hope 
that the new retina scanning and fingerprint identification systems can 
be deployed. Later, this identification could be extended to passengers 
who volunteer for a security background check in order to receive 
expedited security screening at the airport.
    Senator, at AirTran we believe there are three pillars to good 
security. No. 1 is the requirement for highly professional personnel 
with the best possible training and supervision. No. 2 is the best and 
most reliable security equipment and facilities. No. 3 is a consistent, 
comprehensive, and workable Federal security plan.
    The heart and soul of the system is the quality and training of our 
people. No matter how good our equipment and procedures may be, they 
are only as good as the people who operate them.
    Technology is vitally important, particularly because it makes the 
system work faster. People were patient during the busy Thanksgiving 
travel period, but patience will wear thin over time. Reliable 
technology--particularly the increased automation of our systems--is 
mandatory if we are to bring all of our passengers back to flying.
    We must keep in mind that our current security systems are 
operating on the basis of the 15 to 20 percent reductions in capacity 
imposed by most airlines. When those capacity reductions are restored, 
we must be able to safely accommodate the increased volume of 
passengers and bags without increasing security delays.
    In all respects, we must have a consistent, national system. An FAA 
security supervisor in Dallas or Denver must impose the same high 
standards as one in Miami or Myrtle Beach because we are only as strong 
as our weakest link. Our general impression from our pilots and crews 
is that security practices are inconsistent from airport to airport.
    Finally, Senator Cleland, I hope that the Congress will revisit the 
issue of how to pay for this system. With the imposition of the new 
$2.50 security fee per flight segment, taxes and fees now comprise as 
much as 26 percent of the price of a ticket. That is as much as a 35 
percent increase in the cost of ticket taxes to passengers. We know 
from our own experience that these marginal increases have a clear and 
negative impact on stimulating air travel.
    Senator, that concludes my remarks, and again, I thank you for this 
opportunity and for calling this hearing.

    Senator Cleland. Well, thank you, Mr. Kalil, I appreciate 
that statement, and you are right, we have to be sensitive to 
the ticket price. That is something that we have to always pay 
attention to.
    Let me just ask you a question: How do you think AirTran is 
going to be able to handle the requirement of checking all 
checked baggage by December 31 of next year, for explosive 
devices?
    Mr. Kalil. We will very aggressively pursue the acquisition 
of whatever technology we need, training of our people, and we 
feel extremely confident that while it is going to be 
difficult, it is going to be costly, that we will be in a 
position to implement at the time it is required to do so.
    Senator Cleland. OK, thank you very much for that 
commitment.
    Now we move to the technology of dealing with the challenge 
of increased world class security, world class customer 
service. Dr. Bevan, is it? Tom Bevan is Director, Georgia Tech 
Center for Response Technologies--and if we ever needed a 
technological response to help out our country, it is right 
now, Doctor. He is with Georgia Tech, the Georgia Tech Research 
Institute. Thank you for being here with us, we are glad to 
hear from you.

 STATEMENT OF DR. THOMAS BEVAN, DIRECTOR, GEORGIA INSTITUTE OF 
                           TECHNOLOGY

    Dr. Bevan. Thank you for inviting me to participate in this 
hearing. I want to especially commend you, Senator Cleland, for 
your many statements regarding issues pertaining to terrorist 
threats to our country and for organizing this hearing.
    I would like to summarize my prepared remarks and have the 
text incorporated into the record, if I could.
    About 3 years ago, with help from yourself, the Georgia 
delegation and the U.S. Marine Corps, Georgia Tech started a 
center to deal with weapons of mass destruction to get 
technologies into the hands of first responders and others who 
were going to have to deal with those kinds of incidents. We 
did not know where the terrorists would strike or how, but the 
feeling was that the first responders were always going to be 
on the line and that was a good place to start.
    In addition to working on technologies, we also tried to 
address policy and training issues so we have some experience 
there to fall back on, particularly the command and control 
issues and that arena.
    So we started from the grassroots. We now have 50 regional 
partners and some of them are here today, including GEMA, the 
CDC and GMAG, the Georgia Mutual Aid Group. Last year, about a 
year ago today, we demonstrated six technologies that might be 
useful to deal with weapons of mass destruction incidents. By 
weapons of mass destruction, I also include high-explosive 
chem-bio weapons.
    When 9/11 and the subsequent anthrax attacks occurred, we 
have broadened our initiative now to expand it to some other 
areas, first in aviation security and airport security, and I 
will show you some technologies that we picked out that we 
think might be useful there. We are also working with the CDC 
on two projects; one dealing with air intake to buildings, 
trying to protect first the CDC buildings and then other 
buildings, including commercial buildings. Some of the same 
techniques there also apply to protecting air intakes in 
airplanes and airports, which are potential targets.
    And then we are also working with the CDC on using advanced 
technology to improve epidemiology so that it becomes near real 
time and of course that is important for aviation safety 
because in a biological weapons attack using an infectious 
agent that could create in an airport or an airplane, could 
create a big epidemiology problem that has to be solved 
quickly.
    And then finally, we are looking at what basic research 
areas really need to be attended to--things like technology 
that can help us build better composites for aircraft doors and 
so forth.
    Before I show you some of these technologies, I wanted to 
make a couple of points. One is the existence of these 
technologies, the technologies exist to help. And just as we 
found in the first responder situation, a lot of them have been 
overlooked by government funding agencies. They tend to not 
meet military specifications for what they want, but yet they 
are still quite useful. So there are technologies out there in 
existence. The other is that technology can be used to foster 
communications and cooperation between various organizations, 
particularly the information technologies.
    But we need to do a better job right now of getting some of 
these technologies transitioned, out the doors of universities 
and not-for-profits where they have been developed typically 
with Federal money--to get them out the door and into the hands 
of users. Given the slowdown in the economy, there is not a lot 
of risk capital around to accelerate that process.
    So that is the third point I would make, the government 
needs to perhaps step in and try to help facilitate tech 
transfer here.
    So I will talk to you about four--these are representative 
technologies in four areas I will talk about. The first area is 
the sensor technology. One would like to sense very quickly 
chemical, biological, radiological, high-explosive materials. 
This technology really started--is about 12 years old, it has 
been sponsored by the State of Georgia for inspection of wash 
water off of chickens looking for salmonella infection. The 
idea is that the same sort of mechanisms might be useful for 
anthrax or other types of biologicals.
    And then the other area is from the environmental industry. 
We have gotten very little money from military or other folks 
until last year. So the sensor we figure, the piece parts are 
about a hundred bucks as opposed to some sensors that might be 
used which are $100,000 and might need a Ph.D. to operate. This 
one is very simple. The piece parts are a laser, the same laser 
that is in your CD-Rom reader in your computer, it costs about 
ten bucks, on a one-piece part basis; a glass slide which has a 
chemically sensitive coating and the laser light goes through 
that slide; and then a readout device. This is a CCD readout 
device. Right now we are actually cannibalizing those from web 
cameras that we can buy for 40 bucks at Radio Shack. So the 
technology--it took us 12 years to get to make it simple, I 
should also hasten to say.
    So the technology is there and what essentially happens is 
that this chemically sensitive coating can get exposed to a 
chemical or biological agent and when it does, there is a 
chemical reaction that occurs. That chemical reaction actually 
changes the speed of light through the wave guide, which is 
this glass slide here. When that occurs, we can sense that with 
a readout device. A light goes on and you can tell not only 
what type of agent it is but also get an instantaneous readout 
of its concentration.
    We think that technologies like this--and Georgia Tech is 
also developing some five other technologies which are more 
basic further down the road for implementation--technologies 
like this might be incorporated in an aircraft or in airports 
looking for these kind of agents. So that is the sensor arena.
    In a couple of the exhibits here in the physical security 
arena, one of the things you would like to do is reinforce the 
doors of cockpits. The ideal material for that are composites, 
plastics, and we are looking into what we should be doing 
there, particularly for reinforced plastics.
    One of the things you would like to do is you would like to 
have iron bars on the cockpit, reinforce the composites or the 
door with essentially bars of metal. The problem with that is 
they are too weighty, they are too heavy. So we have developed 
some materials here that are extruded that have almost the same 
properties, if you tried to puncture them or bend them, as 
solid bars, but they are honeycombed with cellular materials 
that brace each other and, therefore, make it very lightweight 
as well as very strong. So we are continuing to work in those 
kinds of materials and I have actually talked to some folks 
here in the airline industry that are interested in coming to 
work with us on that.
    The next piece of technology is a filter that looks like it 
is full of jello. It is actually not jello, it is a substance 
called hydro-jells or sol-jells and these are polymers that are 
impregnated with water and other materials so that they can 
catch particulate matter, say anthrax-sized particulate matter. 
They also have some other nice properties in that they capture 
and hold chemicals, particularly volatile or organic chemicals. 
One of the strategies one might use if you are a terrorist and 
want to attack an air conditioning system, air intake, is to 
fill it full of volatile organics or cyanide that would clog up 
conventional carbon filters, which are the kinds that are in 
gas masks essentially. And then you follow that with, you know, 
nice things like nerve agents that would kill a lot of people. 
So essentially, the idea is you clog up the filters and then 
you get stuff through them that would hurt people.
    This has some nice properties in that it captures volatile 
organics but it captures a lot of them. It has a lot of reserve 
and would help to address that type of attack.
    So that is some of the physical security issues.
    The other area is information technology and you had a 
hearing on Wednesday to talk a little bit about information 
technology. What we did with our first responders is we--they 
respond in the form of an organization called an incident 
command post at one of these chem-bio events. The case in New 
York City, they had some 24 of them, primarily because they had 
communications problems. You ideally would like to have one 
that coordinates everything. But what we did with them was we--
it is now possible with wireless local area networks and 
wireless wide area networks to get communications from 
individual firemen, even those in the hot zone with chem-bio 
agents, to get communications to and from them using these 
portable devices. Right now, this one is actually communicating 
with a local area network hub which is out in the hall, so I 
can get information to and from this Palm Pilot. It's 
essentially a standard Palm, this is all commercial off-the-
shelf technology--a Palm Pilot type machine with a wireless 
card.
    Now applications for airports and in airplanes are--we 
believe we could give these to security people to exchange 
information, not only collect information around the airports 
about potential threats, but also tell them--keep them informed 
throughout the airport in more than you could do just through a 
radio. So it's both a data collection method as well as giving 
orders out. You know, our friend that ran down the escalator 
the wrong way, well it made me a little angry because I was 
sitting in one of the 60 other airplanes with my 87-year-old 
mother and she was having a hard time. But the idea is that if 
that kind of event occurs, we can alert all the security 
people, get a description and try to get him before he gets off 
the train.
    Senator Cleland. Right.
    Dr. Bevan. This also contributes to the information fusion 
situation where you have data bases, and we have talked about 
some of those, of potential terrorists. We can also contribute 
data collected from airports and from the airplanes to those 
data bases to try to get early detection.
    Senator Cleland. Do you just want to summarize?
    Dr. Bevan. Yes.
    Dr. Bevan. There is just one other technology I wanted to 
talk about and that is training technology. We are going to 
have to train about 30,000 new Federal employees. There are 
web-based training technologies that could help that we have 
either used or pioneered over the years. And also a side 
benefit from that is you get uniformity across all of the 
population you are trying to train. A lot of that technology is 
available commercially. So that is yet the fourth category.
    [The prepared statement of Dr. Bevan follows:]

           Prepared Statement of Dr. Thomas Bevan, Director, 
                    Georgia Institute of Technology

    Thank you for inviting me to participate in this hearing. I want to 
especially commend you, Senator Cleland, for your many statements 
regarding issues pertaining to terrorist threats to our country and for 
organizing this hearing on aviation and airport security. I also thank 
you for your longstanding support of Georgia Tech and our efforts to 
address the threat of terrorism and weapons of mass destruction.
    About three years ago, Georgia Tech formed the Center for Emergency 
Response Technology, Instruction and Policy (CERTIP) in order to 
address the needs of first responders in coping with terrorist attacks 
involving weapons of mass destruction including chemical, biological, 
radiological, nuclear and high-explosive (CBRNE) agents. We started 
with first responder issues because, while it was unclear how 
terrorists would attack or how our governmental agencies would respond, 
it was certain that local first responders would have to bear the brunt 
of any attack.
    Over the past three years CERTIP has successfully demonstrated 
innovative, affordable, near-term technologies for first responders 
with the help of over 50 regional and national partners, the US Marine 
Corps and the Georgia Congressional delegation. We work directly with 
first-responders to identify requirements and test prototypes for rapid 
feedback to the developers. Our list of partners feature the US Marine 
Corps Systems Command, US Marine Corps Warfighting Laboratory, National 
Guard Bureau, Centers for Disease Control, Georgia Mutual Aid Group, 
CBIRF, Georgia Emergency Management Agency, Grady Hospital, the Atlanta 
Fire Department and the National Institute of Urban Search and Rescue. 
In November 2000, during ``Project Atlanta'' we staged a chemical agent 
exercise on the Georgia Tech campus and successfully demonstrated many 
new technologies to deal with such incidents. I will show you several 
of these today because they also apply to aviation and airport safety.
    The events of September 11th 2001 revealed that the terrorists had 
the will to exploit weaknesses in our aviation security and the 
willingness to sacrifice their lives to use weapons of mass destruction 
in the form of high explosive jet fuel. Shortly after that date, 
Georgia Tech launched its Homeland Defense Initiative to expand the 
scope of the Center's activities beyond immediate first responder 
issues. We are continuing to identify technologies that can be fielded 
in the near-term but are also attempting to identify basic research 
areas that can provide solutions in the long-term. We are looking at 
how we can contribute to counter-terrorism in the areas of 
intelligence, law enforcement, emergency management, military support, 
firefighting/hazardous materials, medicine, environment and 
transportation. For example, we are now considering how to approach 
fusion of many disparate information databases for aviation safety and 
early detection of biological warfare attack, the latter with the CDC.
    Which brings us to aviation and airport safety.
    To summarize the threat: airports and airplanes provide potentially 
lucrative targets for terrorists, particularly those with the 
capabilities to use weapons of mass destruction. Airports and airplanes 
contain dense concentrations of people--an ideal target for weapons of 
mass destruction. Airports and airplanes are particularly lucrative for 
spreading biological warfare agents, especially contagious agents where 
large numbers of people can be exposed to contagious diseases. Finally, 
there are psychological impacts of attacking airports and airplanes 
because many people have the shared experience of spending time in 
these locations.
    This morning, I want to make three points regarding aviation and 
airport safety. The first point is that technologies exist or can be 
developed to improve counterterrorism and emergency response in 
aviation safety. Technologies will not solve all of our problems--
safety requires dedicated, competent, trained people and appropriate 
government policy which encourages cooperation. I will show you some 
examples of existing and emerging technology today.
    Second, aviation counterterrorism and emergency response require a 
new kind and level of cooperation between many organizations at many 
levels of government and in the private and not-for-profit sectors. 
Government needs to set and enforce policies and create incentives, 
which will encourage cooperative planning, materiel standardization, 
joint training and joint emergency response. For example, one of the 
main tenets in our CERTIP effort has been to bring all of the 
organizations, military and civilian, together to plan how to work 
together in CBRNE emergency response. At the grass roots, those 
responsible to prevent and deal with CBRNE terrorist incidents 
cooperate in spite of unclear, ambiguous government policy and 
organization. As in other counterterrorism areas, there now needs to be 
a top-down examination of policy and organization to insure cooperation 
in aviation and airport safety. We also need to focus on training for 
command and control of diverse organizations.
    Third, we must invent mechanisms to get state-of-the-art and future 
technologies out of universities and not-for-profits and into the hands 
of users. I am speaking of a technology transfer initiative with the 
scope of a Manhattan Project. Currently the government funds university 
and not-for profit research and it also does a good job of funding 
government laboratories and for-profit corporations in order to keep 
essential development and manufacturing capabilities available for 
national defense needs. But with business as usual it often takes 
nearly 20 years to get new technologies fielded. We should establish 
the capability to coordinate national research efforts on a much 
broader scale and to connect near-term successes with the users--
military and civilian--as quickly as possible. Furthermore, agencies 
need appropriate levels of funding and discretion to fund and field 
promising research. Georgia Tech has acted as a catalyst to get many 
new technologies into the hands of users in record time so we know that 
barriers exist. University and not-for-profit consortia, centers of 
excellence and proper funding are needed to encourage the emergence of 
these technologies.
    For the purposes of this session, I will categorize some key 
aviation/airport security technologies in to four areas: (1) Sensors 
for CBRNE agents, (2) Physical Security, (3) Information Technology for 
communications and data exchange and (4) Training.
    (1) Sensors are needed to detect CBRNE agents which might be used 
to attack aviation, airports and passengers. While there are many 
sensor technologies under development, I want to show you one in 
particular. Opto-electronic interferometric sensor technologies have 
been under development by Georgia Tech for the environmental and food 
processing industries for about 12 years. The current technology 
provides the means to field an affordable, small, lightweight, low-
power device that can detect and identify agents rapidly at low 
concentrations. The current device consists of three components: a 
small low-power laser, a planar optical waveguide with chemically 
sensitive coatings and a CCD camera readout. The total cost of the 
components, even in low quantities, is less than $100. Light is 
provided by the laser, which is channeled through the waveguide. The 
waveguide has up to 75 individual interferometers. Each interferometer 
has two light channels, which are directed together or interfered, at 
the end of the waveguide to produce an interference pattern. One of 
these two channels is painted with a chemical, which reacts with the 
chemical of interest. When this occurs, the speed of light through that 
channel is changed and the interference pattern starts to shift, 
identifying the chemical and providing its concentration. Last year, 
Georgia Tech CERTIP demonstrated that this technology could detect and 
discriminate sarin chemical agent surrogates. This year we set out to 
detect biological agent surrogates but after the anthrax letters were 
discovered the US Marine Corps requested that we begin to demonstrate 
the ability to detect anthrax.
    Other sensor technologies under development at Georgia Tech include 
the capability to field laboratory-grade instrumentation using very 
small components. Another sensor technology has already demonstrated 
the capability to detect cocaine in small quantities for the US Customs 
Service and could be tuned to other chemicals.
    (2)  Technologies for physical security include both hardware and 
software. For example, Georgia Tech is developing materials which could 
provide cockpit or airport doors, which are more resistant to 
penetration. These include composite materials, linear cellular alloy 
reinforcements and nano-fiber reinforced materials, which are even 
stronger and resist penetration. More advanced ``shape-shifting'' 
materials that swell in response to electrical or thermal energy, can 
seal doors in the doorway but provide rapid opening.
    Georgia Tech CERTIP is also partnering with the CDC and Auburn 
University on the Air Intake Protection Program to develop sensors (the 
opto-electronic sensor, described above, is being used) and filtration 
systems to protect CDC buildings from attack. Obviously, the results of 
the Air Intake Protection Program could be used to protect commercial 
and private buildings, as well. Georgia Tech also has interest in 
developing materials to absorb cargo hold explosions and avoid 
penetration of vital systems in aircraft.
    Off-the-shelf and developing software systems and techniques can 
analyze passenger information to look for suspicious patterns of 
behavior (assisted by realtime inputs from wireless information 
technology, see below). Another software technology provides the means 
for identifying potential terrorists involves face recognition. Face 
recognition technology can be enhanced with a model of the human visual 
system called GTVision. GTVision is an engineering model, which 
captures the state-of-the-art in our knowledge of human vision from the 
eyeball through the brain. It is recognized as a world-class model by 
the US and UK military and is used by the military to develop 
camouflage patterns and predict human visual performance. This model 
also functions as a pattern recognition algorithm that can be used to 
identify people through facial features or could be used for biometric 
recognition systems.
    (3)  Information technology is one of America's strengths and 
should be used to provide survivable, interoperable and convenient 
communications and data exchange. This was pointed out in recent 
hearings in which you participated.
    In the aftermath of the 9/11 tragedy in New York City, the Internet 
was the only communication that survived besides the runner. Cell phone 
service was clogged and then stopped working. Because many of the 
responding units did not have the same radios or use the same radio 
frequencies, radio communication was chaotic. Runners were used to 
transmit information between the 24 incident command posts. Twenty-four 
command posts, rather than one were set up because of communication 
difficulties. In addition to improving phone and radio emergency 
communications through dedicated bandwidth, we ought to exploit the 
Internet and area networks for data, picture and voice communications. 
One can imagine that a major airport incident or airline destruction 
with terrorist origins would present the same sorts of communications 
issues that I just described. But such technology can also be used to 
prevent such incidents through realtime collection and correlation of 
passenger information that can detect and identify potential 
terrorists.
    Some of the capabilities now available which would address aviation 
safety are local wireless area networks (LAN), and hand-held or laptop 
computers connected to these wireless LANS for local communications. 
These technologies are affordable because of economies of scale; future 
offices and homes will all be using wireless data communications to 
avoid the current maze of wires and to improve mobility. Such 
configurations can also be easily connected to the Internet or other 
wide area network (WAN) for communications from an airplane or airport 
to sources of data, expertise and help. Such configurations are not 
susceptible to telephone jams or radios which cannot transmit or 
receive on the same frequencies; they are also less susceptible to 
radio interference. LANs will work as long as local power is available 
and could be powered by emergency generators. Internet II will provide 
dedicated bandwidth for emergency data transmission. Data formats and 
protocols are standard around the world, so any organization responding 
to an emergency could be easily interoperable.
    Last November, Georgia Tech CERTIP demonstrated the use of local 
wireless networks, laptops and handheld computers, and Internet 
connectivity to improve communications at a simulated CBRNE incident. 
All of the first responders at the incident site could exchange data 
through the LAN and could communicate with anyone in the world using an 
Internet hook-up. Most of the data we chose to transmit were medical 
data but any type of data could be exchanged. For example, airports and 
airplanes can use such information technology configurations for 
realtime collection and analysis of passenger data to detect potential 
terrorists and to coordinate emergency response with local, state and 
Federal response organizations. Passenger screeners can easily enter 
information on the results of passenger searches through handheld 
computers; airport personnel can contribute information about 
suspicious activities.
    Information technologies can also assist in tracking down those 
exposed to biological agents. Georgia Tech CERTIP, in collaboration 
with the CDC and Dekalb County Public Health Service is planning to 
demonstrate the use of information technology to accelerate the 
epidemiological investigation of infections diseases, starting with 
West Nile virus. But such techniques could also be used to help stop 
the spread of biological agents such as smallpox.
    (4) Training of personnel is a key issue in aviation safety. Recent 
law will require the Department of Transportation to hire large numbers 
of passenger screeners and air marshals. Fortunately, there are 
commercial and emerging instructional technologies which can help train 
these new employees. Georgia Tech has gained experience with such 
technologies to aid learning on our campuses and to help other 
organizations. For example, web-based training is now a reality for 
many employees in many places including large-scale DOD systems.
    Given the accessibility of the World Wide Web to corporate and 
government entities, this avenue for delivering training holds promise 
not just for conveying content in an interactive manner, but also for 
maintaining electronic records of trainee performance.
    With access to streaming video and other bandwidth-intensive 
applications, it is now possible to generate on-line simulations that 
can test the responses of individuals and groups to multiple scenarios 
at multiple points in each scenario. Such structured exercises can be 
used to teach trainees how to respond to routine and exceptional 
events, and how to distinguish easily between them. The fact is that 
the web is worldwide means that the physical location of the trainee is 
of no consequence with respect to accessing the training materials. 
Also, because technology-mediated learning allows for individualized 
tutoring applications, any trainee who needs extra practice with or 
exposure to the training materials can be easily accommodated. The 
testing module itself can be configured to perform diagnostic analyses 
that will inform learners of their weaknesses and advise them on steps 
they can take to improve their performance that are consistent with 
individual learning styles. These applications can be easily customized 
to the needs of individual learners. Finally, a web-based application 
can be archived so that competency levels of trainees can be easily 
surmised from the archival records.
    Again, thank you Senator Cleland for your support of Georgia Tech 
and homeland defense.

    Senator Cleland. Well, thank you very much, Doctor, and 
Georgia Tech, I am sure, will be called upon in the coming 
years to be extremely helpful here because this is one area 
where technology can be of tremendous help.
    This trusted passenger concept where you have people 
willing to go through a background check or have their 
fingerprint ID'd or retina scanned or whatever it is, and they 
carry that technology with them on their person. Do you see 
potential for that technology to be helpful in the customer 
service area of expediting this security check?
    Dr. Bevan. Yes, I think smart cards with information on 
them to help, in combination with biometrics, can give you very 
good confirmation that that is the person he says he is or she 
says she is. The thing we have to do is work--the concern from 
a sociologic point of view, we have a very strong streak in 
America of not wanting to have national ID cards, we do not 
like that very much and we do not want to appear to also have a 
two-tiered system of security--one for some people and one for 
another.
    Senator Cleland. Thank you very much.
    And now we get to our pilots. We do not get very far 
without the pilot cranking that engine up and saying we are 
ready to go. Mr. Kevin Macginnis is with the Air Line Pilots 
Association and the Delta Master Executive Council and we are 
glad to have your statement, please.

       STATEMENT OF KEVIN D. MACGINNIS, MEMBER, AVIATION 
       SECURITY COMMITTEE, DELTA PILOTS MASTER EXECUTIVE 
      COUNCIL, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Macginnis. Good morning, Mr. Chairman. My name is Kevin 
Macginnis and I live in Peachtree City, Georgia, I fly for 
Delta Air Lines as a co-pilot on the MD-88. I am based in 
Atlanta and fly extensively out of Atlanta Hartsfield 
International Airport. I am a member of the Aviation Security 
Committee of the Delta Pilots Master Executive Council of the 
Air Line Pilots Association.
    Captain Stock Coleman, who is my boss, regrets not being 
able to be here today. He is currently over in Tel Aviv 
attending a security conference held by El Al Air Lines.
    You have my written statement for the record and I would 
like to briefly highlight some of the key elements.
    When President Bush signed the Aviation and Transportation 
Security Act into law, the foundation was laid for the creation 
of an aviation security system that provides real security with 
the lowest possible degree of intrusive procedures. We applaud 
the U.S. Senate for your expeditious and unanimous support of 
this important legislation.
    As we develop a structure that will stand on this 
foundation, we pledge the continued support of over 60,000 
professional aviators who are members of the Air Line Pilots 
Association.
    When I fly to any of the hundreds of commercial airports 
across the country, I communicate with air traffic controllers 
who use common phraseology in their transmission and follow 
procedures that are national in scope. A clearance to make an 
instrument approach, for example, means the same thing in 
Portland, Maine as it does in Portland, Oregon.
    Aviation security, however, is a different matter. Prior to 
the 11th of September, the level of security varied 
considerably from airport to airport on the basis of what has 
been called local perceived threat. As we continue the 
regulations and construct them, that will implement the 
Aviation and Transportation Security Act, let us recognize that 
a terrorist who enters our system in Albany, Georgia presents 
no less of a threat to the national security than a terrorist 
who enters the system in Albany, New York. We must begin from 
the premise that the concept of local perceived threat is a 
dead letter.
    We urge the creation of one level of security that applies 
at every airport and air carrier nationwide. There should be no 
difference in the security standards that are applied at small 
airports and those that apply at large ones. There should be no 
difference between the security standards that apply to small 
airlines and those applied to large ones. We should also 
understand that a Boeing 777 from Delta Air Lines and a Federal 
Express DC-10 would make equally lethal terrorist missiles. 
Therefore, there should be no difference between the security 
standards that apply to passenger operations and those that 
apply to cargo operations.
    There is an Irish toast that goes, ''Here is to those who 
love us; and for those who do not, may the good Lord turn their 
hearts. But if he does not turn their hearts, may he turn their 
ankles, so that we will know them by their limping.``
    We should allow our security personnel to better focus 
their efforts in screening of people who are unknown by 
reducing the level of scrutiny that is applied to people we 
already know and trust. When I report to work at any airport in 
the country, I am likely to spend a fair amount of time in a 
long line only to have my flight kit emptied and my overnight 
bag searched, just to make sure that I am not carrying anything 
that I could use to commandeer the airplane upon which I am 
legally assigned second in command.
    Of course, the security personnel who search my bags 
certainly have no independent way to verify that I am who I say 
I am. If we did not know better, we would assume that there was 
not any simple way to separate the wheat from the chaff, 
pilots, flight attendants, ramp workers and law enforcement 
officers from the general public. But the truth is that the 
technology exists today for a combined computer chip and 
biometric verification system that could be implemented 
expeditiously and economically.
    A system could be implemented that would allow me access to 
a secure area based on a swiped card and a fingerprint scan 
that would generate my picture and employment status on a 
security monitor that would be monitored by a security officer 
and that would happen both at the gate and when we come through 
security.
    Many of my colleagues and I became airline pilots after we 
served long military tours where we held top secret clearances 
and were entrusted with weapons of mass destruction. We passed 
extensive background checks then and again when we were hired 
by Delta.
    We also need a way to know that the baggage in the cargo 
hold contains no device that is intended to cause destruction 
of the aircraft, its passengers and its crew. Until such time 
as we are able to implement this universal baggage screening, 
we urge the creation of an inexpensive photo manifest in order 
to quickly remove any bag in the event its owner does not 
board. Aviation safety is based in part on multiple 
redundancies, so that if one system fails, there is a backup to 
prevent a catastrophe. In the cockpit, we have two altimeters, 
two air speed indicators and two yokes. The aircraft has two 
hydraulic systems, two engines, two air/ground safety sensors.
    The ultimate redundancy in aviation security must include 
both an impregnable cockpit and the ability of the flight crew 
to respond to a threat in the gravest extreme. If we are 
prepared to scramble U.S. fighter jets to intercept a 
commandeered commercial passenger aircraft, ought we not 
provide the crew with equipment and training that is sufficient 
to eliminate a threat short of destruction of the aircraft?
    Thank you very much for the opportunity to share the views 
of the Air Line Pilots Association this morning and I will be 
happy to answer any questions.
    [The prepared statement of Mr. Macginnis follows:]

  Prepared Statement of Kevin D. Macginnis, Member, Aviation Security 
   Committee, Delta Pilots Master Executive Council, Air Line Pilots 
                       Association, International

    I am Kevin Macginnis, a member of the Aviation Security Committee 
of the Delta Pilots Master Executive Council of the Air Line Pilots 
Association, International. I also serve as Chairman of the Aviation 
Security Committee of ALPA Council 44. Council 44 represents more than 
4,000 Atlanta-based Delta pilots. ALPA represents 67,000 airline pilots 
who fly for 47 U.S. and Canadian airlines. We are sincerely 
appreciative of the opportunity to appear before the Committee to 
present our views on the important subject of aviation security.
    ALPA has been at the forefront of the effort to create a more 
secure airline travel system. We are pleased, therefore, that the 
President, on November 19, 2001, signed into law P.L. 107-71, the 
Aviation and Transportation Security Act, which contains many of the 
provisions we had urged be adopted.
    This hearing is most timely, in that it concerns the actual 
implementation of that law's numerous provisions and other initiatives. 
Congress' oversight role will be critically important to prevent a 
repeat of some of the FAA's regulatory missteps in years past. One 
example of such a misstep was the agency's failure to produce major 
security regulations in a timely manner--revised CFR 14 Parts 107 and 
108 were published this summer, 10 years after revisions began! We are 
hopeful that the new DOT Under Secretary's office will produce NPRMs 
and final rules in a more expeditious fashion.
    For many years, ALPA has promoted One Level of Safety for all air 
carriers carrying passengers or cargo in the United States. We, 
therefore, strongly support One Level of Security during the 
implementation of Federal security-related regulations. Instituting a 
single security level, by definition, means the abolition of today's 
sundry security levels and practices for airlines and airports based on 
perceived threat. A terrorist-guided missile, in the form of a fully 
loaded airliner, can take off from any commercial airport in the 
country and wreak havoc on unsuspecting innocents virtually anywhere 
below. A suicidal bomber can affect a terrorist attack as decisively on 
an airplane departing from Des Moines as one leaving from Dulles. There 
is no difference between a fully loaded B-747 cargo airplane and a 
fully loaded B-747 passenger airplane in terms of their use as 
terrorist missiles. Each of our recommendations is made in this 
context.
    Following are some specific initiatives we believe need to be 
addressed in the implementation of the new law.

                 EMPLOYEE AND PASSENGER IDENTIFICATION

    ALPA has been promoting the need for positive, electronic 
verification of identity and electronic airport access control systems 
since 1987--shortly after the downing of PSA flight 1771 by an armed, 
disgruntled, former airline employee. This mass murder, which bore 
similarities to the hijackings of September 11th, was attributable in 
large measure to identity-verification inadequacies that have yet to be 
addressed 14 years later.
    At ALPA's urging, the FAA required approximately 200 of the largest 
commercial airports to install computerized access control systems in 
the late 1980's and early 1990's. However, in spite of the entire 
aviation industry's arguments to the contrary, the agency failed to (1) 
create a detailed set of performance standards for use by the airport 
community and (2) provide for the access control and identification 
needs of the transient airline employee population. This mismanagement 
was, and still is, expensive for the airports and airlines--the initial 
estimate of about $170 million for access controls actually rose to 
more than $600 million, and the figures continue to climb. There are 
also numerous costs that are difficult or impossible to compute 
stemming from the inefficiencies related to transient airline 
employee's lack of access at airports.
    In the mid-1990's the FAA, with ALPA's urging and congressional 
funding, performed a test of what came to be known as the Universal 
Access System (UAS). Two million taxpayer dollars were spent on those 
tests involving two major airlines and four large airports. For all 
practical purposes, those funds were wasted. Although the FAA completed 
successful tests of the UAS and standards were finalized for the system 
in 1998, there has been no implementation by any airline of the system, 
per stated congressional intent. This failure came as a result of an 
FAA policy to leave UAS implementation to the sole discretion of the 
carriers.
    Although magnetic stripe technology was used as the basis for UAS 
tests, there are now several advanced, mature technologies that could 
be used to positively identify authorized personnel. The FAA is 
expected to complete a study of its recent tests of a Memory Chip Card 
(MCC) system for identifying armed law enforcement officers in the near 
future. This technology is much more secure than magnetic stripe and 
has the additional capability of storing an extensive amount of data 
that can be used for both security and other types of uses.
    The FAA has stated that these same readers could also be used by 
airlines for issuance of MCC cards to their employees. ALPA is 
recommending that the airlines use the MCC, or an equally secure 
technology or technology combination (e.g., smart card with biometric 
reader), as the means for performing several important functions, 
including the following:
    1. Positive access control for all employees who work at the 
airport, not just non-transients. Airline pilots and other transient 
employees currently rely on a very non-secure method of moving around 
airports, which creates the potential for security breaches. Namely, 
they request airport-based, company employees to open doors for them as 
a courtesy based on their possession of an airline ID card. As we know, 
ID cards and uniforms could be fraudulently used to gain access, which 
underscores the need for electronic verification.
    2. Positive verification of identity at the screening checkpoint to 
enable transient employees to be processed more quickly. Passengers are 
enduring long lines at the security screening checkpoint. These lines 
are made longer by the screening of pilots, flight attendants and other 
individuals in positions of trust, who are often screened several times 
a day. The lack of equipment for positively identifying these 
individuals wastes limited screening resources and further 
inconveniences the traveling public.
    3. Identity verification of jumpseat riders. Use of the jumpseat by 
commuting pilots is an absolute necessity in today's airline 
environment. Unfortunately, that privilege has been severely curtailed 
since shortly after the terrorist attacks because there is no way to 
positively verify the jumpseat requester's identity and employment 
status.
    4. A platform for digital pilot licenses and medical information. 
Consistent with language in the Act, we recommend that the same card, 
or type of card, be used by the FAA for containing a pilot's license 
and medical information. ALPA is working with FAA Flight Standards on 
this concept. Smart cards have more than sufficient memory for this 
purpose and others that the airlines may develop.
    One important aspect of access control systems and UAS is the need 
for specifying a single set of performance standards to be used by all 
equipment suppliers and system integrators. Different types of 
technologies, used by different airports and airlines, can be 
incorporated into the aviation security system if interoperability is a 
requirement for all of them. RTCA, an aviation standards organization, 
may be useful in helping to create such standards.
    In concert with the new security law's provisions regarding 
passenger identification, several organizations are promoting ``smart'' 
cards for passengers to be read at the screening checkpoint. 
Conceptually, such individuals would be processed more quickly than 
those without a card at a special lane created for this purpose. ALPA 
supports this recommendation provided that the passengers voluntarily 
submit to a thorough background check and, if possible, a criminal 
history records check, in order to receive this card. The background 
check should be updated at least annually in order to retain it.
    Evidencing the importance of this issue, nine of the 33 DOT Rapid 
Response Team (RRT) recommendations relate to the subject of employee 
and passenger identification and access control, namely: Aircraft 
Security Report recommendations 7 and 8; and, Airport Security Report 
recommendations 2, 4, 7, 8, 9, 13, 16. A copy of these recommendations 
is included with my statement.
    We recommend that the government amend CFR 14 FAR Parts 107 and 108 
to accomplish the following:
    1. Identify a single performance standard that will be used by 
access control equipment providers and integrators, the airlines and 
airports to create a universal access system.
    2. Require airlines and airports to create such a universal access 
system that incorporates, at a minimum, the following features: (1) can 
be used by any transient airline employee at any U.S. airport where 
they operate (2) requires the carriage of only one piece of media 
(e.g., smart card) (3) positively identifies pilots for jumpseat-riding 
purposes (4) allows the bearer to open all access-controlled doors to 
which they have authorized entry (5) allows the electronic storage of 
pilot license and medical certificates, and (6) is used as the 
principal means of processing transient employees through the security 
screening checkpoint.
    3. Establish a provision within FAR Part 108 that will allow the 
creation of a ``trusted passenger'' identification and security 
screening checkpoint methodology aimed at increasing security and 
checkpoint throughput.

               HIRING CRITERIA AND PERFORMANCE STANDARDS

    The foundation of a good security system for any entity, public or 
private, is a sound set of hiring criteria. Non-trustworthy employees 
cost time, money, and in the most extreme cases, can be life-
threatening. The aviation industry has failed in several respects to 
ensure that only the most trust-worthy individuals are hired into 
critical, security-sensitive positions.
    Background checks, consisting mostly of employment verification, 
have been used by the aviation industry for a number of years. These 
checks have more recently been supplemented by criminal history records 
investigations when a lapse in employment has occurred or there is some 
other questionable matter associated with an applicant's past.
    It is our recommendation that criminal history records checks be 
performed on all new employee applicants to help ensure that only the 
most ethical and trustworthy employees be allowed within airport secure 
areas. Unfortunately, the issue of background and criminal history 
checks is greatly complicated by non-U.S. citizens and those who have 
been U.S. citizens for only a short time.
    Accordingly, we recommend that the government amend CFR 14 FAR 107 
and 108 to require mandatory pre-hire criminal history records check 
for all applicants who are U.S. citizens. An Interpol criminal history 
records check should be performed on all applicants who are either not 
U.S. citizens, or have not been U.S. citizens for at least 10 years. We 
endorse the Act's specific provisions for screener hiring standards.
    Performance standards for baggage screening can best be tested and 
monitored through use of the Threat Image Project System, or TIPS. TIPS 
intermingles images of bags containing threat objects at random with 
the x-ray or EDS images of real bags. Screeners are required to 
identify the threat objects in a TIPS image, just as they do in a real 
bag, and their results are quantified and logged by computer. 
Performance of screeners has been shown to substantially improve with 
TIPS technology and it should be made a mandatory component of all 
baggage screening equipment.

                           EMPLOYEE TRAINING

    Pilots at many U.S. airlines view the security training that they 
receive from their companies as boring, irrelevant, and unrealistic--
much of it is repetitive from year to year and may largely consist of 
watching video tapes. Accordingly, ALPA wholeheartedly endorses the new 
provision contained in the Act that calls for the government and 
industry to develop ``detailed guidance for a scheduled passenger air 
carrier flight and cabin crew training program to prepare crew members 
for potential threat conditions.'' We recommend that new regulations 
also provide for security training of all-cargo pilots, who have 
special requirements in this regard.
    An Air Transport Association (ATA) working group has recently 
developed, with our input, a very brief response to the RRT on Aircraft 
Security recommendation number 12. That response, however, does not 
fulfill the requirements of the Act for a number of reasons, not the 
least of which is that it does not identify an adequate response to 
acts of air piracy. ALPA has scheduled a meeting to occur in a few days 
with FBI, FAA, Secret Service, and other government and industry 
organizations to develop a new ``Common Strategy'' that can be used for 
training airline personnel on air piracy strategies. A revised Common 
Strategy is needed to develop many of the training elements that 
Congress has identified.
    We recommend that FAR Part 108 be amended to specifically require 
that airlines incorporate all of the program elements identified in the 
Act, plus any additional elements that may be identified during the 
rulemaking process.

                      BAGGAGE AND CARGO SCREENING

    ALPA endorses the new security bill's provisions to require 
security screening of all checked bags loaded onto passenger-carrying 
aircraft and the screening of cargo and mail on cargo aircraft. The 
potential for carrying a bomb-laden bag onto an aircraft is very real 
and needs to be addressed expeditiously.
    The new security law provides the Under Secretary with a 1-year 
study period for reporting on the screening requirements applicable to 
aircraft with 60 or fewer seats used in scheduled passenger service. We 
recommend that all baggage of all airline passengers be screened, 
regardless of the size of aircraft on which they fly. Also, as we 
understand the Act, there will be some passengers who travel on small 
aircraft from certain points of origin without benefit of security 
screening who will be charged as much as $5.00 for security services on 
a one-way trip. This situation may be as the result of an oversight, 
but it is one that deserves the attention of Congress.
    We recommend that Congress quickly take this issue up and provide 
legislation that will ensure that everyone who travels on U.S. 
commercial aircraft, and pays a security fee, is provided the same 
level of security.
    ALPA has for several years promoted the concept of creating an 
electronic passenger and baggage manifest. Similar to the problem of 
employee identity verification, the airlines are not currently capable 
of positively determining who has boarded their aircraft. This is 
demonstrated when aircraft leave the gate with an inaccurate manifest; 
we know of one airline that routinely allows flights to leave the gate 
with up to a two-person error. As another example, after one accident 
last year, an airline CEO made a public request for assistance in 
identifying the passengers on his own aircraft! The security 
ramifications are also substantial--unless we know that the person 
boarding the aircraft is the same one who bought the ticket, we cannot 
positively determine that the individual has been through the security 
checkpoint.
    Currently available technology can be applied to this problem in 
order to create an inexpensive photo manifest of boarding passengers 
and their checked bags. The photo manifest will enable airlines to, 
among other things, (1) positively identify each person and bag on the 
aircraft (2) reduce the potential of boarding someone who has not been 
through screening (3) create a strong deterrence against fraudulent 
ticketing (4) quickly identify a bag(s) that must be removed in the 
event that its owner does not board the flight (5) create an accurate 
passenger manifest that can be used in the event of an accident or 
other tragedy and, (6) if tied to appropriate data bases, identify 
those of possible criminal intent.

  ADDITIONAL MEASURES IN THE AVIATION AND TRANSPORTATION SECURITY ACT

    I would like to turn your attention now to the need for additional 
regulations for implementing certain provisions of the Act. ALPA has 
been heavily involved in the development of, and responses to, the 
security recommendations of the DOT Rapid Response Teams (RRTs), and I 
would like to address the status of some of those recommendations as 
part of this discussion.

Aircraft Cockpit Hardening
    We are encouraged by the rapid move toward full, voluntary fleet 
compliance with Special FAR 92-2, which FAA recently issued. Today, 
nearly every U.S. passenger airliner has been modified to provide 
better, although temporary, security of the flight deck. Modification 
of the cargo fleet, although allowed by SFAR 92-2, was not supported by 
FAA funding, as was the case with the passenger aircraft fleet. As a 
result, modifications to cargo airlines' cockpit doors lag those of the 
passenger aircraft. It is important that cargo aircraft cockpit doors 
be strengthened for several reasons, including (1) cargo aircraft are 
subject to air piracy, just like passenger aircraft (2) security 
protecting cargo aircraft is nearly always less stringent than for 
passenger aircraft (3) cargo flight crews are often required by their 
companies to board additional, non-screened employees or couriers, 
about whom the pilots may know little or nothing, in seats outside the 
cockpit door.
    The process to institute permanent cockpit door design changes 
referred to in the Act and in DOT aircraft security RRT's 
recommendations two, three, and four has already begun. A recent 
regulatory proposal by the ATA would provide for improved security of 
passenger airliner flight decks. Once again, however, the proposal does 
not include cargo carrier aircraft. The RRT recognized the need for 
improvements to both types of transport aircraft doors when they 
specified, ``retrofit of the entire US fleet'' in their 
recommendations.
    Furthermore, the ATA proposal stops short of requiring complete 
protection against gunshots, grenades, and other explosive devices. The 
design standards proposed for new aircraft provide such protection 
calling for ``hardening'' of cockpit floors, ceilings, and bulkheads, 
but retrofit of that protection is not addressed in the ATA proposal. 
This is a serious issue--many aircraft in the fleet today, thus exempt 
from regulations covering new designs, will likely be flying for 
decades to come. The number of aircraft of new design will be miniscule 
by comparison.
    We note that the Act legislates ``such other action, including . . 
. flight deck redesign, as may be necessary to ensure the safety and 
security of the aircraft.'' This language is consistent with aircraft 
security RRT recommendations two, three and four--to provide one level 
of security for every U.S. airliner, regardless of whether it is being 
flown today or still on the drawing board, for both passenger and cargo 
aircraft alike.
    We recommend that new Federal regulations address the need for 
enhanced flight deck security on today's fleet of aircraft, not just 
those aircraft of tomorrow.
    The Act also calls for an investigation by the Administrator for 
determining a means of securing the flight deck of smaller passenger 
aircraft that do not have a door and a lock. These aircraft are 
particularly vulnerable, because many of them do not even have a flight 
attendant who can help prevent, or alert the pilots to, a security 
problem. New regulations should be developed that will ensure one level 
of security in this area.

Cabin Monitoring and Emergency Warnings
    The Act provides for the use of ``video monitors and other devices 
to alert pilots in the flight deck to activity in the cabin.'' The 
industry has held discussions about two related RRT recommendations, 
and there are numerous vendors with products that will address them, 
from the simple to complex. We recommend implementing regulations that 
are broad enough to allow airlines some latitude in selecting those 
products and systems that will work best for a given type of aircraft 
in the company's fleet. Pilot input should be solicited in the 
development of any such security enhancements, as they will be the 
ultimate end-user of them.
    Even though video monitors may have a role in our aircraft cabins, 
we are duly concerned about the ultimate, improper use of any video 
recording. The recent television airing of recordings made during the 
struggle aboard United flight 93 on September 11th demonstrates that 
some within the media will not respect human dignity or decorum on a 
voluntary basis. We are adamantly opposed to any new type of audio or 
video recording device on aircraft unless all appropriate legal 
protections are in place in advance to prevent such recordings from 
misuse by the media, airlines, or government agencies.

Defensive Capabilities for Pilots
    ALPA is most pleased that Congress agreed with the need for 
providing pilots a means of voluntarily arming themselves with lethal 
force. The Act's language in this area leaves considerable flexibility 
in how it may be implemented. We are currently studying this subject 
and intend to create a set of recommendations on what types of weapons 
should be carried, how the weapons should be transported, training 
curriculum and other related subjects. We plan to promote our views to 
the office of the new Under Secretary and appropriate FAA offices for 
their consideration in developing regulations.
    We would note two specific omissions in the Act regarding carriage 
of lethal weapons by pilots. First, there is no provision in the Act 
for an exemption from liability in the event that a pilot uses a lethal 
weapon in self-defense. Second, the Act does not create a Federal 
exemption from State laws for interstate carriage of weapons. We call 
on Congress to write new legislation aimed at addressing both of these 
requirements.
    Regarding non-lethal defensive capabilities, discussions are 
ongoing with others in government and industry on the best means of 
providing such to both pilots and flight attendants. The discussions 
are not yet mature enough for regulations, consistent with the Act's 
provision for a study by the National Institute of Justice on this 
matter.

Passenger Volunteers to Provide Emergency Services
    We endorse the Act's provisions for passengers to volunteer their 
services in the event of an emergency. This security enhancement is one 
that ALPA has promoted for several years. The Act's language, however, 
is very narrow in that it limits the volunteers to law enforcement 
officers, firefighters and emergency medical technicians. Notably 
absent are others, such as doctors, bomb technicians, and able-bodied 
individuals, who could provide useful services in the event of various 
types of emergencies.
    We recommend that Congress broaden the scope of this legislative 
language to include additional categories of volunteers. We also 
recommend that these individuals, if they pass requisite background and 
criminal records checks, be identified as volunteers via future 
``trusted passenger'' cards. The information about their special 
abilities could be stored on a smart card that would be read by airline 
personnel and, eventually, be transmitted to the captain for his use as 
necessary.

Aviation Security Programs for Air Charters
    ALPA endorses the Act's provision for air charter security 
programs. Under current regulations, large commercial aircraft can be 
operated with little or no security provisions because of their charter 
status. Clearly, new regulations are needed to ensure that the same 
level of security for scheduled operations is provided for non-
scheduled operations.

                              OTHER ISSUES

    Last, I would like to bring to your attention a couple of other 
issues that are not included in the Act, but we believe they are worthy 
of your consideration.
INS Deportees
    ALPA has a long-standing concern about the use of airline aircraft 
to transport Immigration and Naturalization Service deportees out of 
this country. While the INS has, in our opinion, taken some steps to be 
more responsible with these ``voluntary'' deportations on our aircraft, 
the potential for problems still remains. In our view, anyone who is 
required to leave the country involuntarily is a security risk; they 
are traveling against their wishes to a destination where they may face 
prison or other hardships. A natural incentive is created for these 
individuals to try to escape or alter their travel destination. Many of 
the deportees carried aboard our aircraft have some type of criminal 
records and it is not uncommon for them to also have medical problems 
that are not conducive to passenger health. Buttressing these concerns 
are actual instances of sexual assaults, lewd behavior and other 
problems.
    Under INS regulations, no escorts are provided for deportees unless 
they are deported in groups of 10 or more. We recommend that the INS 
find other means of deporting these individuals without subjecting the 
traveling public to potential for harm. Alternatively, deportees should 
not travel on commercial aircraft unless they are escorted by two or 
more individuals who are assigned to control them from the moment of 
boarding until disembarking.
    We recommend that Congress address this matter immediately with 
legislation aimed at eliminating the INS' deportation deficiencies.
Security Information
    Aircraft Security RRT recommendation number 13 recommends that each 
airline develop a delivery system or procedure to provide government 
security advisories to crewmembers in a timely manner. Currently, many 
pilots receive no timely security information at all. Some airlines, 
which can legally provide information from security directives to 
pilots because of their ``need to know,'' instead withhold that 
information.
    A regulation needs to be added to CFR 14 FAR Part 108 to require 
that airlines provide captains with all appropriate information about 
new security provisions, potential areas of threat, and other related 
subjects.
    Thank you again for the opportunity to testify today. I would be 
pleased to address any questions that you may have.

    Senator Cleland. Thank you very much, Mr. Macginnis.
    Several cockpit issues--first of all, I think the airlines 
have dealt well with the cockpit security issue. You mentioned 
that your boss was going to El Al--to Tel Aviv. El Al is a 
small airline, so I am not sure you could exactly replicate 
this, but in terms of cockpit security, they have actually two 
doors to the cockpit. It is almost like a submarine airlock 
where you enter an outer door, you come in, that outer door is 
then electronically and/or manually locked and then you enter 
the cabin and in effect the pilots and the co-pilots have 
access to the bathroom and so forth through the inner secure 
sanctum area. They never go outside into the cabin. So once 
they are in, they are in and nothing will get them out. And 
their job is to land the aircraft, that is the El Al standard. 
The air marshals which are on every El Al flight, their job is 
to control the cabin.
    I know that is maybe a little bit much, but in your 
opinion, in regard to the security of the cockpit door, are you 
pretty much comfortable with where we are now or do we need to 
do more?
    Mr. Macginnis. Yes, sir, we are very comfortable where we 
are now. New standards are being developed for an improved 
cockpit door that would be more beneficial and give us more 
safety features than we currently have in place now. Obviously 
we have more sky marshals that are flying on our flights today. 
That is also an added benefit there. But there is still more 
that needs to be done, including the voluntary arming of flight 
crew members.
    Senator Cleland. Yes, I want to get to that in just a 
minute.
    Redundancy--do we need two transponders? You mentioned the 
duality of things in the cockpit. Part of the challenge on 
September 11 was that the hijackers turned the transponder off. 
The FAA, in effect, had to play a passive role and could not 
really track these aircraft and even if they were able to call 
upon an F-15, they were not able to track them. As you fly in 
American airspace, do we need some transponder that is on all 
the time so that the FAA is able to find an aircraft wherever 
it is in the sky?
    Mr. Macginnis. We currently have transponders that once we 
basically take off to landing, that track us throughout the 
skies, our every movement. However, the incident on September 
11, they were able to turn that off. There is technology now 
that prevents that system from being turned off in the event of 
an emergency.
    Senator Cleland. That is good to know.
    Now, stun guns in the cockpit. How do the pilots feel about 
weapons, stun guns, that kind of thing in the cockpit?
    Mr. Macginnis. My prior experience as an FBI officer 
working on operation safety task forces, you come up with 
operational procedures for each weapon that you use. With the 
stun guns, the current operation procedure is that you have two 
officers that have lethal force standing by in case the stun 
gun does not work.
    The Air Line Pilots Association is similar to that of the 
FAA requirement having a fire extinguisher in the aircraft. We 
have a fire extinguisher up in the cockpit; in case there is a 
fire, one person flies the airplane and the other one puts out 
the fire. If an intruder were to come through that cockpit 
door, we would have one person to fly and we would like to have 
the fire power to put out that fire if that person ever came 
through.
    Senator Cleland. Thank you. Well, thank you very much for 
your testimony and thank you very much for your work.
    Mr. Planton, thank you very much for your patience. Mr. 
Jeff Planton is a Senior Vice President, EDS (Electronic Data 
Systems).
    Mr. Planton. Yes.
    Senator Cleland. Now there is an acronym EDS that has to do 
with demolitions or identifying----
    Mr. Planton. Explosion detection system, yeah.
    Senator Cleland. So you are not the explosion 
identification people.
    Mr. Planton. No, we are not.
    Senator Cleland. You are the Electronic Data System.
    Mr. Planton. And we usually make that distinction in these 
hearings.
    Senator Cleland. Thank you and welcome.

 STATEMENT OF JEFF PLANTON, SENIOR VICE PRESIDENT, ELECTRONIC 
           DATA SYSTEMS (EDS') U.S. GOVERNMENT GROUP

    Mr. Planton. Thank you. I guess I can say good afternoon 
officially, Senator Cleland.
    Senator Cleland. Yes, sir.
    Mr. Planton. My name is Jeff Planton and I am Senior Vice 
President of EDS's U.S. Government Group and I am based out of 
Herndon, Virginia.
    We appreciate the opportunity to present our views to this 
Subcommittee and on the subject of great importance to our 
country, to our company and to our customers.
    Following the worst threat and terrorist asttacks in U.S. 
history, the Federal Government, airports and the airline 
industries are grappling with short and long-term solutions to 
improve and enhance passenger safety.
    Since September 11, EDS has been involved at many levels 
with our government and private sector clients, which include 
the Federal Aviation Administration, Immigration & 
Naturalization Service, domestic and international airports and 
some of the largest airlines in the world. Immediately after 
September 11, EDS assembled a team representing every element 
of the aviation industry and critical technologies including 
biometrics, smart cards, information security, complex data 
management and airline specific systems.
    Our team has identified an approach to aviation security 
that encompasses the passenger experience, the airport 
environment and the underlying infrastructure. Today's 
testimony covers the passenger experience and portions of that 
recommended infrastructure.
    First, we should address the current situation. Industry 
capacity has been cut by 20 percent--80,000 employees have been 
laid off, hundreds of aircraft have been parked and orders for 
new aircraft delayed or canceled. In order for Americans to get 
back into the skies, they need to feel better about what has 
been done to improve airline safety.
    The good news is, with sufficient assurances of safety and 
service, pent up demand could quickly outpace recent capacity 
cuts and we could return to new levels of what we saw before 
September 11. To achieve this, we must improve existing 
physical security with a balanced approach of innovative 
processes and proven technologies.
    To date, priority has been given to physical security 
measures such as National Guard troops in airport terminals and 
more rigorous searches at checkpoints and gates. These visible 
measures appear to be improving passenger confidence; however, 
these advances in passenger confidence have been offset by 
declines in customer service and convenience. The traveling 
public has been very patient with increasingly intrusive and 
time-consuming searches, but they are starting to complain 
about pat-downs and even requirements to unbutton clothing at 
gate areas. Clearly this is not a system that is a viable long-
term solution.
    To stimulate air traffic near the pre-tragedy volumes, we 
must stimulate and address confidence and convenience. The 
Aviation and Transportation Security bill references solutions 
that help us accomplish these objectives. Among other things, 
the bill calls for trusted passenger programs, improved baggage 
management processes and enhanced passenger pre-screening 
systems. We fully support these initiatives because they 
address fundamental security questions--who they are and who 
they say they are; are they a threat to security; and are they 
carrying anything illegal. They also leverage proven 
technologies that can be rolled out quickly.
    In a new era of suicide terrorists, positive identification 
of passengers is as important as the detection of bombs and 
weapons. Currently, traditional identification documents like 
drivers license or passports are the only means of validating 
identity of passengers. Yet these documents are easily stolen 
or forged. Recognizing this, we now have to treat all 
passengers as high risk. This means more random searches, more 
inconvenience for law-abiding citizens and perhaps worst of 
all, more wasted time for security personnel who should be 
focused on truly high-risk passengers.
    EDS joins other industry partners and other aviation 
associations in recommending opt-in process to increase the 
number of known or trusted travelers. Increasing the number of 
known travelers accomplishes a number of things--first, it 
expedites the process for the known traveler by providing 
dedicated queues and automated kiosks. Second, it improves the 
process for the unknown traveler because the known persons are 
removed from their queues. And third, it increases security for 
all because security resources can be focused on a smaller 
universe of unknowns.
    The cornerstone of the trusted traveler program is a 
voluntary biometric identity system. These systems could be 
used to speed check-in and process for frequent travelers, who 
represents as much as 50 percent of the flying public. Having 
once registered with the system, where full proof of identity 
was provided and a background investigation successfully 
completed, a traveler would be issued a smart card. With this 
card, the passenger can authenticate his or her identity in 
seconds at a biometric checkpoint using biometric technologies 
such as fingerprint scanning, hand geometry or facial 
recognition.
    EDS has such a system in place today at Ben Gurion 
International Airport in Israel which is considered the safest 
airport in the world. It allows registered Israeli citizens to 
authenticate their identities with a magnetic card in a 
biometric technology, saving up to 2 hours off the wait at 
passenger control. Currently 15 percent of the passengers at 
Ben Gurion utilize this voluntary authentication system, plus 
the system can be implemented rather quickly. The initial phase 
of the Ben Gurion system was implemented in just 3 months.
    While the current FAA-mandated computer-aided passenger 
prescreening, CAPS, is a great start, the regulators, airlines, 
unions and associations agree that improvements are warranted. 
EDS recommends a centralized passenger evaluation system that 
will objectively evaluate the level of risk that each 
individual poses to the transportation system. With a 
centralized system, risk criteria could be changed near real 
time and could instantaneously alert all airlines of the 
potential threat. Further, this system would be the foundation 
for comparison of passengers to law enforcement watch lists.
    This kind of system is not new. In fact, EDS currently is 
operating a similar prescreening system for a number of U.S. 
airlines, processing approximately 70 million passengers 
annually. Given that number of airlines already utilizing the 
system, EDS feels that a version of CAPS is the logical 
foundation for a national passenger evaluation capability and 
could be deployed in about 6 to 9 months, depending on final 
requirements and funding arrangements.
    EDS also recommends a flight risk management solution that 
aggregates individual risks into an overall flight or airport 
risk situation. This solution would provide airports with 
information on when to escalate security measures.
    As the Aviation and Transportation Security Act requires, 
all checked bags should be screened, using expolsive detection 
equipment, EDS.
    [Laughter.]
    Mr. Planton. However, after 100 percent screening is 
achieved, systems must be implemented to ensure the integrity 
of those bags. Once a bag has been cleared of explosive 
materials, it needs to be secured, either by sealing the bag 
itself or sealing it within a luggage container. After being 
sealed, the bags or containers could be tracked and tracked 
throughout the airport using bar codes or radio frequency 
identification devices, RFID tags like the tags you put in the 
window of a car. Using this technology, airports and airline 
personnel would know whether a specific bag that arrived at the 
plane should have arrived. If it did not, they could determine 
where the bag was removed from the process and why. This form 
of electronic tracking also facilitates a positive bag match to 
those actually boarding the aircraft and allows personnel to 
quickly locate that bag and remove it from unattended checked 
baggage. This same system could be used to secure and monitor 
cargo and mail.
    A number of baggage identification, sortation or 
reconciliation systems are in place today, both here in the 
United States and around the world. Many rely on bar code 
technology, although RFID bag systems are being piloted by 
several airlines today. Further, RFID is proven technology 
frequently used in other industries, especially assisted in 
tracking and monitoring vehicles, inventories and managing 
supply chains.
    A great deal of attention and energy has been devoted to 
physical security processes. This is necessary and very 
important and will continue to be the key component of a 
security screening process. However, technology will be 
critical to the solution that enhances security while 
preserving the convenience, privacy and fiscal responsibility. 
It is imperative that a solution to aviation security be 
approached from an enterprise perspective. Such an information 
system will have to process real time data, must be accessible 
to airports, airlines, governments around the world, robust 
systems permitting central data management with greatly 
distributed data collection required. This system will require 
a solid infrastructure with no possibility of down time, and 
without question, access to it and the information it contains 
must be secure.
    While the integrated system described above is not 
currently in place, none of the individual technologies 
described are new. EDS is issuing hundreds of thousands of 
biometrically enabled smart cards for the U.S. Department of 
Defense. EDS prescreens millions of passengers using its client 
server CAPS system every year. Ben Gurion International Airport 
utilizes a biometric system to expedite immigration of 
thousands of passengers every day. Credit card systems evaluate 
and authorize millions of transactions using information 
captured at point of sale devices around the world and supply 
chain systems track millions and millions of products in the 
United States and abroad. Beyond the individual solutions, the 
scale and scope of the system would not be unprecedented 
either.
    While integration of such disparate data bases and complex 
technologies on a global scale might be new for airports and 
the airline industry, global service providers like EDS already 
have extensive experience creating and running comparable 
systems in other industries.
    The challenge is to restore the confidence and the 
convenience at the same time. Logic dictates that restoring one 
without the other will not solve any of the problems we face 
and the solutions I have described today would complement 
physical security enhancements and compensate for the negative 
impact on services. By implementing these solutions, we will 
restore confidence to the flying public and get Americans back 
in the skies.
    Thank you very much and I will answer any questions you 
have.
    [The prepared statement of Mr. Planton follows:]

      Prepared Statement of Jeff Planton, Senior Vice President, 
          Electronic Data Systems (EDS') U.S. Government Group
      ``Next Steps in Aviation Security: Restoring Confidence and 
                             Convenience''

    Good morning. My name is Jeff Planton and I am a Senior Vice 
President of EDS' U.S. Government Group based in Herndon, Virginia EDS 
appreciates the opportunity to present our views to this subcommittee 
on a subject of great importance to our country, our company and our 
customers.
    Following the worst terrorist attacks in U.S. history, the Federal 
Government, airports and the airline industry are grappling with short- 
and long-term solutions to improve and enhance passenger safety. Since 
September 11th, EDS has been involved at many levels with our 
govornment and private sector clients, which include the Federal 
Aviation Administration (FAA), the Immigration and Naturalization 
Service (INS), domestic and international airports and some of the 
largest airlines in the world.
    Immediately after September 11th, EDS assembled a team representing 
every element of the aviation industry and critical technologies, 
including biometrics, smart cards, information security, complex data 
management and airline-specific systems. Our team has identified an 
approach to aviation security that encompasses the passenger 
experience, airport environment and the underlying infrastructure. 
Today's testimony covers the passenger experience and portions of the 
recommended infrastructure.

                           CURRENT SITUATION

    First, we should address the current situation. Industry capacity 
has been cut by 20 percent, 80,000 employees have been laid off, 
hundreds of aircraft have been parked and orders for new aircraft 
delayed or canceled. In order for Americans to get back into the skies, 
they need to feel better about what's been done to improve airline 
safety. The good news is with sufficient assurances of safety and 
service, pent-up demand could quickly out-pace recent capacity cuts and 
we can return the air traffic to levels that we saw before September 
11th. To achieve this, we must improve existing physical security 
enhancements with a balanced approach of innovative processes and 
proven technologies.
    To date, priority has been given to physical security measures such 
as National Guard troops in airport terminals and more rigorous 
searches at checkpoints and gates. These visible measures appear to be 
improving passenger confidence. However, these advances in passenger 
confidence have been offset by declines in customer service and 
convenience. The traveling public has been very patient with 
increasingly intrusive and time-consuming searches, but they are 
starting to complain about pat downs and even requirements to unbutton 
clothing in gate areas. Clearly, this is not a system that is viable 
long-term.
    To stimulate air traffic nearer to pre-tragedy volumes, we must 
simultaneously address confidence and convenience. The Aviation and 
Transportation Security Bill references solutions that help us 
accomplish these objectives. Among other things, the bill calls for 
trusted passenger programs, improved baggage management processes and 
enhanced passenger pre-screening systems.
    We fully support these initiatives because they address the 
fundamental security questions:
    <bullet> Are they who they say they are?
    <bullet> Are they a threat to security?
    <bullet> Are they carrying anything illegal?
    They also leverage proven technologies and can be rolled out 
quickly.

                    ARE THEY WHO THEY SAY THEY ARE?

    In a new era of suicide terrorists, positive identification of 
passengers is as important as the detection of bombs and weapons. 
Currently, traditional identification documents, like drivers licenses 
or passports, are the only means of validating the identity of 
passengers, yet these documents are easily stolen or forged. 
Recognizing this, we now have to treat all passengers as ``high-risk''. 
This means more random searches, more inconvenience for law-abiding 
citizens and, perhaps worst of all, more wasted time for security 
personnel who should be focused on truly high-risk passengers.
    EDS joins other industry partners and other aviation associations 
in recommending an ``opt-in'' process to increase the number of 
``known'' or ``trusted'' travelers. Increasing the number of known 
travelers accomplishes a number of things. First, it expedites the 
process for the known traveler by providing dedicated queues and 
automated kiosks. Second, it improves the process for the ``unknown'' 
travelers because the known persons are removed from their queues. And 
third, it increases security for all because security resources can be 
focused on a smaller universe of ``unknowns''.
    The cornerstone of the trusted traveler program is voluntary 
biometric identity systems. These systems could be used to speed the 
check-in process for frequent travelers, which represent as much as 50 
percent of the flying public. Having once registered with a system 
where full proof of identity was provided and background investigation 
successfully completed, a traveler, would be issued a smart card. With 
this card, the passenger can authenticate his or her identity in 
seconds at a biometric checkpoint, using viable biometric technologies 
such as fingerprint scanning, hand geometry, or facial recognition.
    EDS has such a system in place today at Ben Gurion International 
Airport in Israel which is considered the safest airport in the world. 
It allows registered Israeli citizens to authenticate their identities 
with magnetic card and biometrics technologies, saving up to 2 hours 
off the wait at passport control. Currently, 15 percent of the 
passengers at Ben Gurion utilize this voluntary authentication system. 
Plus, the system can be implemented rather quickly--the initial phase 
of the Ben Gurion system was implemented in just 3 months.

             ARE SPECIFIC INDIVIDUALS A THREAT TO SECURITY?

    While the current FAA-mandated Computer Aided Passenger Pre-
Screening System (CAPPS) is a great start, regulators, airlines, unions 
and associations agree that improvements are warranted. EDS recommends 
a centralized passenger evaluation system that will objectively 
evaluate the level of risk that each individual pose to the 
transportation system. With a centralized system, risk criteria could 
be changed near real-time and could instantaneously alert all airlines 
of potential threats. Further, this system would be the foundation for 
the comparison of passengers to law enforcement watch lists.
    This kind of system is not new. In fact, EDS is currently operating 
a similar prescreening system for a number of U.S. airlines--processing 
approximately 70 million passengers annually. Given that a number of 
airlines already utilize this system, EDS feels that this version of 
CAPPS is the logical foundation of a national passenger evaluation 
capability and could be deployed in 6 to 9 months depending on final 
requirements and funding arrangements.
    EDS also recommends a Flight Risk Management Solution that 
aggregates individual risks into an overall flight or airport risk 
situation. This solution would provide airports with information on 
when to escalate security measures.

                  ARE THEY CARRYING ANYTHING ILLEGAL?

    As the Aviation Transportation and Security Act requires, all 
checked baggage should be screened using explosive detection equipment. 
However, even after 100 percent screening is achieved, systems must be 
implemented which ensure the integrity of the baggage.
    Once a bag has been cleared of explosive materials, it needs to be 
secured--either by sealing the bag itself or sealing it within a 
luggage container. After being sealed, the bags or containers could be 
tagged and tracked throughout the airport using bar code or radio 
frequency identification devices (RFID's like toll tags on highways). 
Using this technology, airport and airline personnel would know whether 
a specific bag arrived at a plane when it should have. If it did not, 
then they could determine where the bag was removed from the process 
and why. This form of electronic tracking also facilitates the positive 
matching of baggage to those actually boarding an aircraft and allows 
personnel to quickly locate and remove the unattended checked baggage. 
This same system could be used to secure and monitor cargo and mail.
    A number of baggage identification, sortation and reconciliation 
systems are in place today, both here in the U.S. and around the world. 
Many rely on bar code technology, although RFID baggage systems are 
being piloted at several airlines today. Further, RFID is a proven 
technology frequently used in other industries--especially to assist in 
tracking and monitoring vehicles, inventories and managing supply 
chains.

        AT THE CORE OF SECURITY SYSTEMS: INFORMATION TECHNOLOGY

    A great deal of attention and energy has been devoted to physical 
security processes. This is necessary and very important, and will 
continue to be a key component of the security screening process. 
However, technology will be critical to a total solution that enhances 
security while preserving convenience, privacy and fiscal 
responsibility. It is imperative that a solution to aviation security 
be approached from an enterprise perspective. Such an information 
system will have to process data real-time and must be accessible to 
airports, airlines and governments around the world. Robust systems 
permitting central data management with greatly distributed data 
collection are required. This system will require a solid 
infrastructure and no possibility of downtime. And without question, 
access to it and to the information it contains must be secure.
    While the integrated system described above is not currently in 
place, none of the individual technologies described are new. EDS is 
issuing hundreds of thousands of biometrically enabled smart cards for 
the U.S. Department of Defense. EDS pre-screens millions of passengers 
using its client-server CAPPS system every year. Israel's Ben Gurion 
Airport utilizes a biometric system to expedite immigration for 
thousands of passengers every day. Credit card systems evaluate and 
authorize millions of transactions using information captured at point 
of sale devices around the world. And, supply chain systems track the 
production of millions of products in the U.S. and abroad.
    Beyond the individual solutions, the scale and scope of this system 
would not be unprecedented, either. While integration of such disparate 
data bases and complex technologies on a global scale might be new to 
airports and the airline industry, global service providers like EDS 
already have extensive experience creating and running comparable 
systems in other industries.

                             IN CONCLUSION

    The challenge is to restore confidence and convenience at the same 
time. Logic dictates that restoring one without the other will not 
solve the problems we face. The solutions I've described today would 
compliment physical security enhancements and compensate for the 
negative impacts on service. By implementing these solutions, we will 
restore the confidence of the flying public and get Americans back in 
the skies again.
    Thank you for this opportunity to present this testimony. I am 
happy to answer any questions you might have.

    Senator Cleland. Thank you very much, Mr. Planton. I was 
just sitting here thinking, it is fascinating what is evolving 
out of our effort to, as Michael Jackson said, balance world 
class security with world class convenience and customer 
service.
    The 15 percent at Ben Gurion----
    Mr. Planton. Yes.
    Senator Cleland [continuing]. Choose, shall we call it for 
want of a better term, the trusted passenger route. If we had 
such a system in America, what is your guess of how many people 
would voluntarily sign up?
    The reason I ask that, I fly, you know, every Friday and 
every Monday to come back here and I fly all the time. And I 
see a lot of the same people on the flight. I mean there are a 
lot of business travelers out there. These are not first time 
flyers; these are frequent flyers.
    I cannot help but think that maybe that number might be 
higher in the United States. What is your guess?
    Mr. Planton. As I stated, frequent flyers for some airlines 
account up to 50 percent of their passengers. I would believe 
that the United States, Americans, would opt in for convenience 
sake. That benefits us two-fold. It moves frequent travelers, 
yourself, through security, but also shortens the line for non-
frequent travelers like the individuals taking that once in a 
lifetime vacation who have never flown before--that shortens 
that line, and we have seen that at the Israeli Ben Gurion 
Airport. We have also seen that at our immigartion checkpoints 
along the Mexican border with some of the systems that we 
piloted with the INS.
    Senator Cleland. Thank you. And it seems too with our web 
technology and so forth, that for a lot of people, getting a 
reservation over the web if there would be a way to preapply 
for something like that and do a lot of the checks and so forth 
even for the non-frequent flyer. I do not know. I think we are 
getting into a fascinating world where our telecommunications, 
our data bases, our intelligence capabilities and so forth can, 
as the gentleman said, Mr. Selvaggio, focus more and more on 
the passenger rather than on who has tweezers and who has a 
stitching needle.
    One final question and we will wrap it up--oh, actually our 
two guests here, Colonel Brooks and Richard Duncan, since you 
are really the people in charge of security here, you ought to 
be allowed to make a statement here. Mr. Duncan, do you want to 
go first, if you care to say anything?

 STATEMENT OF RICHARD DUNCAN, HARTSFIELD INTERNATIONAL AIRPORT

    Mr. Duncan. Thank you for allowing me to speak. I believe 
Mr. DeCosta has really stated the position for Hartsfield. 
However, I personally would like to thank you for taking the 
lead on the aviation security and especially for drafting the 
legislation for prosecuting those who violate security. As a 
security manager, I constantly have to work with the policies 
and procedures, but when we have a violation and there is 
nothing to fall back on for that particular individual, it 
really is disheartening for the staff to work with.
    We are constantly looking at our procedures and trying to 
make sure that we are providing the quality services while 
maintaining security that everyone expects of us.
    Thank you.
    Senator Cleland. Thank you, Mr. Duncan.
    Colonel Brooks, is it?

             STATEMENT OF COLONEL BROOKS, ATLANTA 
                       POLICE DEPARTMENT

    Colonel Brooks. Senator Cleland, thank you for inviting----
    Senator Cleland. And you are with the APD, Atlanta Police 
Department.
    Colonel Brooks. Yes, sir, I am with the Atlanta Police 
Department. I am the Precinct Commander at Hartsfield.
    I just wanted to assure you that I have met with Mr. Keith 
Varner, the Solicitor General at Clayton County, last week and 
we are aggressively pursuing criminal charges against the 
individual who breached our security. So we are pursuing State 
charges on that, but it would certainly help if there was 
something on the Federal level that we could pursue also.
    Senator Cleland. Thank you very much. I intend to introduce 
that legislation this afternoon.
    Wrapping it up, let me just thank you all. But one final 
question--a year from now, if we meet together again in 
December of 2002, is it your opinion that we will be presiding 
over a much--not only a much improved aviation security system, 
but really a superior security system to that basically it is 
available around the world?
    Colonel Brooks, you want to take a stab at that? Yes or no.
    Colonel Brooks. Since September 11, we have seen a vast 
improvement in security systems and law enforcement at 
Hartsfield--I can speak for Hartsfield. I think a year from 
now, we are going to see an entirely different aviation 
industry, security just being a part of that. And I think we 
will see a vast improvement in that timeframe.
    Senator Cleland. Mr. Duncan.
    Mr. Duncan. I concur that we will see major improvements 
within the systems and I think everyone really would have to 
start thinking a little bit differently from what we think 
about airport security because when we think of airport 
security, we think only of the checkpoint, but there are a lot 
of other layers of security that we have been dealing with in 
trying to assure that everyone understands those things that 
are associated with it. From the parking lot all the way to the 
aircraft, we are building layers of security and reinforcing 
security throughout the airport.
    Senator Cleland. Thank you.
    Mr. DeCosta.
    Mr. DeCosta. I echo the sentiments of my colleagues. I 
think that with the attention that is being given to this 
nationwide from Congress, Federal agencies and every airport 
manager in the country are focused on security in a much 
different way now, as compared to before. Our commitment to 
meet the challenge will make sure that we have the safest 
system in the entire world.
    Senator Cleland. Thank you.
    Mr. Selvaggio.
    Mr. Selvaggio. I can say that every airline executive is 
also committed to security in a way that we have never even 
thought of before. So the commitment from airline executives is 
universal and I think yes, it will be better a year from now 
and I think a key is technology and it is technology that we 
have seen in evaluating the customer that would like to move to 
a trusted passenger program and it is also the technology that 
we are going to deploy in examining and screening baggage.
    Senator Cleland. Thank you very much.
    Mr. Kalil.
    Mr. Kalil. Yes, sir, I believe this industry will be--a 
year from today will certainly be more focused on security than 
it ever was in the past. I do agree we have to marry that 
enhanced security with enhanced customer service and I think 
the trusted customer concept is the way to go. One of the 
things that we have tried to do is instill that sensitivity for 
security down to every single employee in the company because 
it is the people on the front lines that really ensure that our 
security is what it should be.
    Senator Cleland. Thank you very much, sir.
    Dr. Bevan.
    Dr. Bevan. Yes, I think there are a number of technologies, 
commercial off-the-shelf technologies that could help us in the 
next year. Beyond that, I am a little concerned that there are 
technologies that are available that will not get developed and 
we will need them to continue to improve our security and 
improve the system as we go along. In other words, we should 
not, after a year, rest on our laurels and say it is all over 
with. This is a long-term kind of struggle and I am sure there 
are other technological improvements that could help.
    Senator Cleland. Thank you very much.
    Mr. Macginnis.
    Mr. Macginnis. Senator, we thank you and you are the leader 
in this industry right now, we applaud you once again for 
taking the initiative and introducing this bill so we do have 
some security measures to start with. We pledge the support of 
the Air Line Pilots Association in helping you.
    Senator Cleland. Thank you very much, sir.
    Mr. Planton.
    Mr. Planton. Thank you for your time today. I do believe we 
will have a secure national airspace system a year from now. We 
will see our Federal workforce trained and implemented, and my 
job in EDS is to take what we know now and apply it to the 
airline system and leverage that across the United States. 
Thank you.
    Senator Cleland. Thank you all very much. And of course all 
of this is designed to enhance the confidence and security of 
the American public in flying again in not only the numbers we 
saw before September 11, but in greater numbers.
    Thank you all very much. Let me just say that the wonderful 
staff on this Committee deserve the credit for putting this 
together. I would like to thank my associate, Jane Terry, and 
her wonderful work with the Commerce Committee; Sam Whitehorn, 
Gael Sullivan and Mike Reynolds for being with us today.
    We will call the Committee to an end. Thank you very much.
    [Whereupon, the Committee was adjourned at 12:26 p.m.]
  

                                  <all>

</pre></body></html>
